<html>
<title> - U.S. LEADERSHIP IN THE INTERNATIONAL WHALING COMMISSION AND H.R. 2455, THE INTERNATIONAL WHALE CONSERVATION AND PROTECTION ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                  U.S. LEADERSHIP IN THE INTERNATIONAL
                 WHALING COMMISSION AND H.R. 2455, THE
      INTERNATIONAL WHALE CONSERVATION AND PROTECTION ACT OF 2009

=======================================================================

                             JOINT HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                AND THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2010

                               __________

                           Serial No. 111-95

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
  56-336PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
              Subcommittee on International Organizations,
                       Human Rights and Oversight

                   RUSS CARNAHAN, Missouri, Chairman
BILL DELAHUNT, Massachusetts         DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
VACANT
              Jerry Haldeman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                    Mariana Maguire, Staff Associate

                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
               Lisa Williams, Subcommittee Staff Director
           Daniel Bob, Subcommittee Professional Staff Member
             Nien Su, Republican Professional Staff Member
                       Vili Lei, Staff Associate















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Monica Medina, Esq., Principal Deputy Under Secretary, Office of 
  Oceanic and Atmospheric Research, National Oceanic and 
  Atmospheric Administration.....................................    12
The Honorable David A. Balton, Deputy Assistant Secretary, Bureau 
  of Oceans and International Environmental and Scientific 
  Affairs, U.S. Department of State..............................    20
Mr. Patrick Ramage, Director, Global Whale Program, International 
  Fund for Animal Welfare........................................    37
Mr. Earl Comstock, Counsel to the Alaska Eskimo Whaling 
  Commission, Comstock Consulting, LLC...........................    43
Justin Cooke, Ph.D., Scientific Consultant, Representative to IWC 
  Scientific Committee, International Union for the Conservation 
  of Nature......................................................    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     5
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri, and Chairman, Subcommittee on 
  International Organizations, Human Rights and Oversight: 
  Prepared statement.............................................     9
Monica Medina, Esq.: Prepared statement..........................    16
The Honorable David A. Balton: Prepared statement................    22
Mr. Patrick Ramage: Prepared statement...........................    40
Mr. Earl Comstock: Prepared statement............................    46
Justin Cooke, Ph.D.: Prepared statement..........................    56

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    70
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs:
  Material submitted for the record..............................    71
  Prepared statement.............................................    76
The Honorable Bill Delahunt, a Representative in Congress from 
  the Commonwealth of Massachusetts: Prepared statement..........    78
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Material submitted for the record.......    80
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    82
The Honorable Eni F.H. Faleomavaega: Material submitted for the 
  record.........................................................    84

 
U.S. LEADERSHIP IN THE INTERNATIONAL WHALING COMMISSION AND H.R. 2455, 
    THE INTERNATIONAL WHALE CONSERVATION AND PROTECTION ACT OF 2009

                              ----------                              


                         THURSDAY, MAY 6, 2010

  House of Representatives,                
          Subcommittee on International                    
            Organizations, Human Rights and                
                                  Oversight and            
                  Subcommittee on Asia, the Pacific        
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room 2200, Rayburn House Office Building, Hon. Russ 
Carnahan<greek-l>, deg. (chairman of the subcommittee on 
International Organizations, Human Rights and Oversight) 
presiding.
    Mr. Carnahan. Good morning. I want to call this joint 
subcommittee hearing of the Subcommittee on International 
Organizations, Human Rights and Oversight, and the Subcommittee 
on Asia, the Pacific and Global Environment to order. And 
welcome, all of you.
    And the first thing I want to do is recognize my co-
chairman here this morning, Mr. Faleomavaega.
    Mr. Faleomavaega. I thank the distinguished chairman for 
working together on this bill that we have been working on for 
months to develop, and for conducting hearings. And I do want 
to thank also our distinguished witnesses who will be 
testifying this morning, after we make our opening statements.
    I do want to thank all the interested parties who are here 
with us. And let me just share with my colleagues, and with the 
public, my statement for this hearing.
    Industrial whaling has led to the severe depletion and near 
extinction of many whale species. For decades the international 
community has attempted to find cooperative ways to conserve 
whales, including International Whaling Commission measures 
such as a commercial whaling moratorium, and the creation of 
the Southern Ocean Whales Sanctuary.
    Yet, the IWC's actions have proved ineffective in its 
paramount task of protecting whales. And the Commission's 
influence has waned substantially in recent years, due to 
disputes among the 88 member nations that make up the IWC.
    Last year, for example, with support and assistance from my 
good friend, the gentleman from Massachusetts, Mr. Delahunt--
and I am sure that he will be joining us here later--we worked 
together, and we introduced H.R. 2455, the International Whale 
Conservation and Protection Act of 2009, aimed at eliminating 
whaling, which is the most visible threat to whales.
    The bill also targets other key impacts on whale 
populations, such as ozone depletion, chemical and noise 
pollution, marine debris, vessel strikes, entanglement in 
fishing gear, prey depletion, offshore industrial development, 
and escalating threats from climate change and ocean 
acidification.
    All these issues require international cooperation, 
obviously, and American leadership, in my humble opinion, is 
critical in that regard.
    Though H.R. 2455 is not a perfect bill, it has provided a 
start for discussions about whaling. And its structure gives 
the new administration a better chance at providing leadership 
by potentially increasing U.S. leverage in international 
negotiations.
    And the Obama team has, in effect, played an assertive role 
in attempting to restore the IWC's credibility to and protect 
whale populations. As part of a core group of some 12 countries 
within the IWC, the United States contributed to seeking a 
resolution to a number of longstanding issues confronting the 
Commission.
    The administration began its work premised on the principle 
that all nations, whether they engage in or oppose whaling, 
share a common goal in conserving whales. As part of a core 
group of 12 countries within the IWC, the United States 
contributed to the work of the IWC chair and vice chair in 
seeking a resolution to a number of longstanding issues 
confronting the Commission.
    On April 22 of last month, the chair and the vice chair 
released their draft proposal, which will be debated at the 
IWC's annual meeting in Morocco this coming June. That 10-year 
proposal currently under review by the United States and other 
countries begins with the following vision statement, and I 
quote:

          ``International Whaling Commission will work 
        cooperatively to improve the conservation and 
        management of whale populations and stocks on a 
        scientific basis, and through agreed policy 
        measures.<greek-l>'' deg.
          ``By improving our knowledge of whales, their 
        environment, and the multiple threats that can affect 
        their welfare, the Commission will strive to ensure 
        that whale populations are healthy and resilient 
        components of the marine environment.''

    The IWC notes that under the terms of the draft proposal, 
the three countries that currently set their own catch limits--
Japan, Norway, and Iceland--would immediately suspend the 
whaling they do based on special permits, objections and 
reservations to IWC rules, and agree instead to sustainable 
catch limits set by the IWC at levels below present ones. They 
would also agree to IWC monitoring, surveillance and control 
measures on their whaling operations, including the placement 
of observers on their whaling vessels.
    According to the IWC, if adopted--and I say this, if--over 
the 10-year period of the proposal, several thousand fewer 
whales will be caught than if the current situation remains.
    Japan's Antarctic whale hunt would fall in stages to 200, 
about a quarter of its size, within 5 years. Iceland would be 
permitted an annual quota of 80 fin whales, less than last 
year's hunt of 125, along with 80 minke whales, while Norway's 
quota would be set at 600 minkes. No other country would be 
permitted to start hunting, and indigenous groups would not be 
affected.
    As an aside, I think it is important to recognize what 
these numbers make clear: Whaling is not an issue simply for 
Japan. Indeed, Norway and Iceland together account for roughly 
the same yearly take as Japan, despite the wide discrepancy in 
population among the three countries with Norway's 4.8 million 
citizens and Iceland's 317,000 population constituting a tiny 
fraction of Japan's population of well over 120 million.
    I also want to note that the new leadership of Japan has 
shown greater willingness to compromise on the issue of 
whaling, and the Minister of Agriculture, Forestry and 
Fisheries recently expressed a desire, and I quote, ``to 
continue negotiating with patience,'' according to media 
sources.
    Even so, the IWC draft proposal remains subject to a good 
deal of debate and change, and it is quite possible that no 
agreement will be achieved at all. Thus far, the response to 
the proposal has been mixed, with most of the pro-conservation 
NGOs voicing opposition. In fact, some of these groups have 
been particularly forceful in their disavowal of the proposal, 
as demonstrated by the prominent advertisement about President 
Obama recently placed in the papers by the International Fund 
for Animal Welfare.
    I wanted to show my colleagues and the public the full-page 
ad in the New York Times taken out by our friends at the 
International Fund for Animal Welfare. It says, ``President 
Obama, you promised to end this slaughter. Why is U.S. now 
leading the fight to legalize it?'' I want to submit this to be 
made part of the record, if that is okay with you, Mr. 
Chairman.
    That said, in its current form, the IWC draft proposal 
would appear to share a central goal in the provisions of the 
bill that Congressman Delahunt and I have worked on and has 
been introduced in ensuring the health and the resilience of 
whale populations for generations to come.
    In light of that common goal, the Subcommittee on Asia, 
Pacific and Global Environment, and the Subcommittee on 
International Organizations, Human Rights and Oversight feel it 
appropriate to convene this hearing to assess recent 
developments and discuss them in relation to the International 
Whale Conservation and Protection Act of 2009.
    From my perspective, Mr. Chairman, the whaling issue will 
require a cooperative solution. The United States can, and 
must, lead. But, as with any international problem, we cannot 
impose our views on the rest of the world unilaterally and 
expect positive results.
    What we can do is negotiate and persuade. And when we talk 
about numbers, we should insist that they be based on science, 
and not on politics. We should also insist that whatever is 
agreed to in Morocco next month, assuming anything is agreed to 
at all, is both binding and enforceable; and that any whaling 
that does take place is strictly limited to that sanctioned by 
the IWC.
    We are fortunate to have with us today the key 
administration officials to testify. And we certainly look 
forward to their testimonies, as I am sure my good friend, the 
gentleman from Massachusetts, will appropriately introduce our 
administration witnesses at a later time in the hearing.
    And with that, Mr. Chairman, I do want to thank you. Again, 
in my opening statement I say that the issue of whales 
definitely is an international issue. As I also shared earlier 
with Congressman Delahunt, even in my own island cultures in 
the Pacific, I don't know if some of the friends here in the 
audience have ever seen the Whale Rider; this is our Polynesian 
cousins among the Maoris in New Zealand, have a very, very fond 
affection for these animals.
    And so it is true with our Hawaiians, our Samoans--every 
Polynesian values whales almost like fellow human beings. In 
fact, we consider them just as much as we consider our own 
lives. But I will discuss that at a later point.
    But Mr. Chairman, I want to thank you again for allowing me 
to give this opening statement. And I yield back.
    [The prepared statement of Mr. Faleomavega 
follows:]<greek-l>Faleomavaega statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carnahan. Thank you. And I want to yield myself 5 
minutes for a brief opening statement, and then I am going to 
yield to the gentleman from Massachusetts.
    I thank Mr. Delahunt for his leadership on this issue. When 
he chaired the International Organizations Subcommittee he was 
a champion on this issue. Since he has moved over to be chair 
of the Europe Subcommittee, he continues as vice chair of this 
committee. And so I am going to turn this over to him shortly.
    But I also want to thank Mr. Faleomavaega for his 
leadership on this issue, as well.
    Earlier this year I launched the bipartisan American 
Engagement Caucus with Representative Joseph Cao from 
Louisiana. Mr. Delahunt is also a member of that caucus. And we 
believe it is essential to have international cooperation, but 
also international institutions that work; that work in the 
economic, security, and environmental fields.
    The International Whaling Commission is an example of an 
environmental institution that has struggled recently to 
achieve its core mission of research and addressing emerging 
threats to whales and their habitats.
    The U.S. needs to use all elements of smart power to engage 
their partners to improve IWC and protect the environment. This 
is an issue that is really an international issue.
    I represent a district in Missouri, in our heartland. And 
this is an issue where I live, as well. In fact, I have a 
letter from our world-renowned St. Louis Zoo supporting this 
hearing. And I want to have that placed in the record.
    They say in their letter--I want to briefly quote it--

        ``We hope the hearing will result in strong U.S. global 
        leadership of whale conservation and protection, and 
        renew America's commitment to whale conservation, 
        especially within the international arena, such as the 
        IWC.''

    I am pleased to make note that the St. Louis Zoo is 
celebrating its 100-year anniversary this year. Our local zoo 
has done so much to promote the awareness of conservation in so 
many animal species and their habitats.
    So I want to thank again Chairman Delahunt, Chairman 
Faleomavaega, and again welcome our witnesses. I do have a 
conflict today, so I am going to have to excuse myself, but I 
am going to leave you in very good and capable hands.
    And I can't leave this hearing today without reminding Mr. 
Delahunt that my mother, according to her genealogy I had an 
ancestor that was a whaler from Massachusetts. So I guess I 
have this in my blood. Yes. So I am going to turn it over to 
you.
    [The prepared statement of Mr. Carnahan 
follows:]<greek-l>Carnahan statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Russ. You know, as Chairman 
Faleomavaega indicated, H.R. 2455 was introduced by him, 
Representative Bordallo, Representative Harano and myself. And 
I think it is there to really demonstrate our collective 
commitment to whale conservation.
    But I also want to note that on the Senate side, the senior 
Senator from Massachusetts, who has a residence, by the way, on 
Nantucket, Senator Kerry introduced a similar bill in the 
United States Senate. And for those who are taking notes, that 
is S. 3116.
    I think I would take this time to remind my colleagues that 
this committee, the House Foreign Affairs Committee, has had a 
long and distinguished history on the protection of whales. We 
have consistently opposed commercial whaling, and supported 
whale protection.
    In 1990, the House approved a resolution, again originating 
in this committee, calling for sanctions against nations 
conducting unjustified lethal whaling research. And virtually 
every year since then, the committee has approved resolutions 
seeking to strengthen and enhance internationally the 
protection of whales.
    Today's hearing will continue this committee's longstanding 
engagement in this issue. We will explore ways for the United 
States to reassert its global leadership in international whale 
conservation and protection.
    In addition to receiving testimony on the legislation, we 
will hear about the ``so-called deal''--I say that in quotes--
that was released on Earth Day, and will be voted upon, 
presumably, by the International Whaling Commission in June.
    It is important to emphasize that today whales face more 
threats than they did more than two decades ago. Last year more 
whales were killed than in any other year since the 
establishment of the 1986 moratorium on commercial whaling, a 
measure again that was strongly supported by the United States.
    We are aware that member nations of the IWC have been 
meeting in secret, behind closed doors, over the past 3 years, 
to negotiate a new whaling arrangement. Pro-whaling nations are 
advocating a 10-year plan that would legitimize whaling, even 
in the southern ocean whale sanctuary, an internationally 
designated safe haven established in 1994 to protect more than 
80 percent of the world's whales.
    Our witnesses today include administration officials that 
have been engaged in these negotiations, and I am anxious to 
hear from them exactly how this deal is good for the whales. I 
am particularly interested in how this deal maintains the 
moratorium, as stated in the so-called consensus decision.
    The term moratorium is defined in Webster's as suspension 
of an activity, and it would not appear that whaling is being 
suspended.
    So based on what I am aware of at this point in time, I 
would strenuously object to this deal and its provisions. While 
I recognize that Japan, Iceland, and Norway have never ceased 
their whaling activities, and continued limited whaling during 
the international moratorium, this was done in spite of 
international objections, and pursuant to certain loopholes in 
the IWC.
    Instead of fixing these loopholes, I am concerned that the 
administration may have set a course to reward the very nations 
that flouted international agreements by engaging in commercial 
whaling. This course is contrary to every position embraced by 
the United States since the early 1980s.
    In conclusion, let me read a message sent to the IWC that 
states the following:
          ``I want to take this opportunity to affirm the 
        United States Government's continuing commitment to 
        whale protection, and to urge you to support our 
        proposal for an indefinite moratorium on commercial 
        whaling.<greek-l>'' deg.
          ``Throughout human history, whales have evoked awe 
        and wonder. They are the largest creatures ever to have 
        lived on this earth; yet, they also are among the most 
        mysterious. It is this mysterious quality that gives 
        whales their appeal and increase the importance of 
        effective management that could assure whale 
        populations for the future.''

    That message was sent on July 17, 1981, by President Ronald 
Reagan. As President Reagan demonstrated, whale protection has 
never been a partisan issue, and it is important to continue 
our bipartisan commitments.
    I look forward to hearing testimony from all of our 
witnesses.
    Mr. Chairman, thank you. And before I yield back, let me 
just say you have truly been the champion on this cause. And I 
am honored to co-sponsor the legislation with you. With that, I 
yield back.
    Mr. Faleomavaega [presiding]. And I just want to say to the 
gentleman, it has been my personal honor, too, and privilege in 
working closely with you for all these months. And our friends 
also, who are very concerned about the conservation of whales 
and bringing about this hearing that we are having today.
    Before I turn the time back to Mr. Delahunt to introduce 
our distinguished witnesses from the administration, I would 
like to recognize one of the members of our subcommittees. I 
know there are a lot of whales in the State of Arizona, and 
that is why he made sure that he would be here to express some 
strong, strong views on why we need to make every effort to do 
what we can do to save our whales.
    So the distinguished gentleman from Arizona, Mr. Flake, for 
his opening statement.
    Mr. Flake. I have no statement. Just glad to be here.
    Mr. Faleomavaega. All right, thank you. Mr. Delahunt, would 
you like to introduce our----
    Mr. Delahunt. Yes, I would, I would be honored to. First we 
have Ambassador David Balton. He is the Deputy Assistant 
Secretary for Oceans and Fisheries in the Bureau of 
International Environmental and Scientific Affairs at the 
Department of State.
    In March 2005, President Bush, with the consent of the 
Senate, accorded to Mr. Balton the rank of Ambassador during 
his tenure. He previously served for 6 years as director of the 
Office of Marine Conservation at State. In that capacity he was 
responsible for coordinating the development of the U.S. 
foreign policy concerning living marine resources, and 
overseeing U.S. participation in international organizations, 
such as the IWC, dealing with the conservation and management 
of these resources.
    He has negotiated numerous treaties and other international 
agreements on fisheries, marine mammals, and other matters 
pertaining to the marine environment. Welcome, Ambassador.
    Next, Monica Medina is currently the Principal Deputy 
Undersecretary for Oceans and Atmosphere of the National 
Association and Atmospheric Administration, and the U.S. 
Commissioner to the International Whaling Commission.
    She has a lengthy career in marine law and policy dating 
back to her time as senior counsel on the Senate Committee on 
the Environment and Public Works. She was Deputy Associate 
Attorney General at the Department of Justice, with oversight 
of the Environment Division, and also had a previous stint at 
NOAA as General Counsel.
    As U.S. Commissioner, she serves as the head of the U.S. 
delegation to the meetings of the IWC, and leads negotiation on 
issues related to the commission. As such, she will provide 
invaluable insight into the processes that led to this draft 
consensus decision. And I look forward to her testimony. 
Welcome to both of you.
    Mr. Faleomavaega. If I may, I thank the gentleman for 
introducing our witnesses. And I would like to, in terms of the 
order of the witnesses, if Ms. Medina could proceed, and then 
followed by our Deputy Assistant Secretary, Mr. Balton.

   STATEMENT OF MONICA MEDINA, ESQ., PRINCIPAL DEPUTY UNDER 
SECRETARY, OFFICE OF OCEANIC AND ATMOSPHERIC RESEARCH, NATIONAL 
             OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Ms. Medina. I would be glad to. Good morning. Thank you 
very much. I believe it is on; maybe I am just speaking too 
quietly.
    Good morning, Mr. Chairman and members of the committee. 
Thank you for your interest and your close attention to this 
issue and the details of the proposals that are on the table.
    Thank you for your invitation to speak today on behalf of 
the Obama administration about the upcoming 62nd annual meeting 
of the International Whaling Commission, or IWC.
    I am Monica Medina, Principal Deputy Undersecretary for 
Oceans and Atmosphere with the National Oceanic and Atmospheric 
Administration, and I am testifying today in my capacity as the 
U.S. Commissioner to the IWC.
    The goal of the Obama administration is to conserve whales 
and preserve the IWC as the premiere international body for the 
conservation and management of whales.
    The administration reaffirms its unwavering support for the 
commercial whaling moratorium, and believes strongly that 
lethal scientific whaling is unnecessary in modern whale 
conservation and management.
    The administration is also committed to furthering 
discussions of critical issues within the IWC, including the 
future of the organization. For any future arrangement to be 
acceptable, it must, one, result in significant improvement in 
the conservation status of whales for the long term; and two, 
be based on sound science.
    My written testimony includes background information on the 
IWC, and a discussion of the main issues currently confronting 
the organization, a long description of the future process, and 
includes some description of the current proposal by the chair 
and vice chair of the commission.
    The United States's biggest concern at the IWC is that more 
and more whales are being killed. Twenty-four years ago, the 
international community agreed on a moratorium that was 
supposed to stop industrialized commercial whaling; but in 
reality, whaling never ended.
    Look at the situation today. Just three countries--Japan, 
Norway, and Iceland--persist in non-indigenous hunting of 
whales. They justify this by exploiting loopholes in the 
moratorium.
    The unfortunate outcome is clear, and growing more dire 
each year. And I brought a chart; it could be displayed at some 
point. I am not going to speak to it directly, but it does show 
this trend of increased whaling.
    In 1990, three countries killed a total of 300 whales. In 
1995, they killed 750 a year. By 2000, the annual number topped 
1,000 whales per year. By 2005, it was up to 1,700 whales a 
year. And this year, three countries issued themselves quotas--
and that is quotas--to kill more than 3,100 whales annually.
    Right now, unfortunately, there is little that the IWC can 
do about it. Unless something happens, more and more whales 
will be killed, and there is currently no limit to how many 
whales will be killed in the future.
    Since the ban on commercial whaling in 1986, more than 
35,000 whales have been hunted, and the numbers continue to 
grow. At the same time, the resulting polarization of the IWC 
threatens the viability of the organization as the 
international forum for resolving these issues, for 
coordinating critical research on other issues, and developing 
international agreements to further whale conservation.
    Years, and I do means years, of protracted and unresolved 
debate over the proper means to conserve, utilize, and study 
whales have made many IWC members, including the United States, 
concerned about the body's future relevance in controlling 
unilateral whaling and conserving whale stocks.
    I believe a ceasefire is needed. In fact, it is overdue.
    However, and I do want to say however, the administration 
has concerns with the current proposal put forward by the chair 
and vice chair. And I want to make abundantly clear that if the 
proposal remains unchanged, the U.S. will vote against it.
    In 2008 the commission agreed by consensus to form a small 
working group. The task of the small working group had been to 
develop a package or packages for consensus resolutions 
regarding the future of the IWC for review by the commission.
    The commission is looking for an agreement acceptable to 
all its members, including all of those opposed to commercial 
and scientific whaling. In 2009, a smaller support group was 
established to assist the chair in providing direction to the 
process, and in preparing material for submission to the small 
working group.
    The support group was designed to include a diverse 
geographic and socioeconomic representation of the IWC member 
countries, as well as a range of views on whaling issues. It 
was comprised of 12 countries, including the United States.
    After three meetings of the support group, the chair of the 
commission submitted a report in March of this year to a 
meeting of the small working group in Florida. And that report 
contained a set of ideas about how the IWC could improve its 
function in the future. That document was thoroughly discussed 
at the March meeting, and the chair and vice chair of the IWC 
have since released a revised version of this document as a 
joint proposal to all the commission's members for their 
consideration at the annual meeting in June.
    The United States has indeed participated in the future 
process, in good faith, to try and achieve a number of U.S. 
objectives. These U.S. objectives are to retain and strengthen 
the moratorium on commercial whaling; to bring all whaling 
under IWC control by closing the loopholes that permit 
unlimited whaling today; to transform the IWC to focus squarely 
on conservation, and address the new and emerging threats to 
cetaceans; to recover severely depleted and endangered 
populations of whales; to increase the participation of civil 
society at IWC proceedings; to prevent our subsistence hunts 
from being held hostage by the commission for political 
reasons; and to address the growing international trade and 
black market of whale meat and whale products.
    As you may have recently noted, in the Los Angeles Times, 
there was a sushi bar in Los Angeles actually selling whale 
meat.
    While the United States recognizes that some significant 
achievements have occurred, we are disappointed that the future 
process has not yet been able to achieve a resolution of some 
of the key issues facing the commission. Despite this, we 
believe that the chair's proposal represents a step forward, 
and is a foundation for achieving a functioning IWC and 
improving the conservation of whales.
    We have encouraged other countries to approach the 
discussions with open minds, flexibility, and constructive 
attitudes, in the hope that diplomatic and scientific solutions 
can be reached.
    While the administration has not taken a position on H.R. 
2455, I believe the U.S. objectives, along with our unwavering 
support for improved conservation of whales and the moratorium 
on whaling at the IWC, that we are very much in sync with the 
intent of H.R. 2455.
    As the bill appropriately states, today whales face an 
uncertain future due to a variety of threats. These threats 
include climate change, pollution, ocean noise, ship strikes, 
bycatch, and entanglement. The U.S. would like to see the IWC 
prioritize its work to address these very important issues.
    However, we agree with concerns expressed by the State 
Department that the need for flexibility to strengthen the work 
of the IWC may be slightly inhibited by some of the current 
provisions of H.R. 2455. But we would very much like to work 
with you on that.
    In closing, Mr. Chairmen, while the administration 
recognizes conservation benefits outlined in the proposal put 
forward by the IWC chair and vice chair, we continue to have 
concerns, and would not agree to it in its present form.
    At this time we reserve judgment on any revised proposal, 
pending further discussions both before and at the annual 
meeting in June in Agadir, Morocco. The United States will 
consult with all relevant stakeholders to fully consider the 
elements of the chair and vice chair's proposal.
    In closing, I would like to reiterate that the United 
States's position on whale conservation and management has not 
changed. And I agree with you, Congressman Delahunt, that 
whales do evoke awe and wonder. Our goal is to conserve many 
more whales than the status quo is conserving.
    I would like to ask that two letters be placed in the 
record, one from all the recent chairs of the--I am sorry, all 
the recent U.S. Commissioners to the IWC, both from Republican 
and Democratic administrations, and one from a group of 
scientific chairs, or chairs of the Scientific Committee of the 
IWC. Both of those are relevant to the proposal. And also this 
chart.
    Thank you very much.
    [The prepared statement of Ms. Medina 
follows:]<greek-l>Medina deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Without objection, those documents will 
be made part of the record. And could you please make sure that 
the staff receives those documents you cited, Madam Secretary.
    Ms. Medina. We will.
    Mr. Faleomavaega. Okay. I would also like to note for the 
record that we are joined by another distinguished member of 
our subcommittee, the gentleman from South Carolina, Mr. 
Ingliss. If he has any opening statement that he would like to 
make at this time.
    All right, then we will proceed on, Secretary Balton, for 
your testimony.

 STATEMENT OF THE HONORABLE DAVID A. BALTON, DEPUTY ASSISTANT 
SECRETARY, BUREAU OF OCEANS AND INTERNATIONAL ENVIRONMENTAL AND 
          SCIENTIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Balton. Mr. Chairman, members of the two 
subcommittees, thank you very much for the opportunity to 
testify before you today. I have a written statement, and ask 
that it be included in the record.
    Mr. Faleomavaega. Without objection, both of your 
statements will be made part of the record, as well. Okay.
    Ambassador Balton. This morning I will try to highlight the 
main points.
    I would like to commend the members of the two 
subcommittees for their interest in strengthening our efforts 
to promote whale conservation, and to improve the functioning 
of the IWC. The United States is a leader in whale conservation 
at the international level, and we can be proud of our record.
    This morning I will try to present the views of the 
Department of State on the issues relating to whaling and whale 
conservation, and particularly how these issues fit into the 
larger framework of U.S. foreign policy.
    For the better part of two decades, divergent views within 
the IWC have led to a prolonged stalemate on these issues And 
as someone who has spent about 20 years negotiating 
international agreements to conserve and manage living marine 
resources, I regard the stalemate as both unfortunate and 
anomalous.
    The stalemate has steadily eroded the stature and 
effectiveness of the IWC as an international organization. At 
this point, the IWC does not meaningfully control the whaling 
activities of Iceland, Norway, or Japan. Indeed, the only 
whaling activities that the IWC oversees closely are the taking 
of whales for indigenous subsistence use, including whaling 
activities undertaken by Alaskan Eskimos.
    Please allow me to quote from a letter Ms. Medina just 
mentioned that President Obama recently received from six past 
U.S. IWC Commissioners. They say,

        ``We have seen the steady decline of the IWC from a 
        world-class international organization for the 
        conservation and management of the great whales, to a 
        nearly dysfunctional body. In short, the IWC is not now 
        the sort of international organization we would wish it 
        to be.''

    Perhaps more importantly, the stalemate within the IWC also 
affects the broader foreign policy of the United States with 
the nations most involved.
    I wish to emphasize that these nations are allies on a wide 
range of international issues, with each other, and with the 
United States. Australia, New Zealand, member states of the 
European Union, Iceland, Japan, Norway, and the United States 
generally work closely together within the international 
system, including on many environmental and ocean-related 
issues. Many of these nations are military allies, as well.
    The whaling issue is a source of ongoing friction in these 
otherwise healthy relationships. The Department of State 
therefore sees value in seeking a resolution of this stalemate, 
provided that the resolution otherwise serves U.S. interests. 
In our view, moving forward would allow advancement of our 
foreign policy agenda with these and other partners.
    The United States certainly has different views about 
whaling and whale conservation from those who are engaged in 
commercial whaling and lethal scientific whaling. But these 
governments are not our enemies. All of the governments 
involved are participatory democracies who are now engaged with 
us in an honest, if difficult, effort to find a way forward.
    I do not know whether this effort will succeed. If it 
fails, it will be because the IWC members involved simply could 
not find a mutually acceptable formula for resolving 
differences.
    This process still has a chance to succeed, however. I wish 
to underscore what you heard from Ms. Medina. The 
administration does not accept the proposal of the chair and 
vice chairs as it is currently configured.
    I expect that the proposal of the chair and vice chair is 
also unacceptable to most other IWC members, as well. Indeed, 
it has drawn criticism from all sides of the debate.
    That said, the administration also finds the status quo to 
be unacceptable. We oppose the increasing levels of unregulated 
whaling, and we are quite frustrated by the paralysis within 
the IWC.
    Our best hope is for the chair's proposal to serve as a 
springboard on which to jump forward to an arrangement that is 
acceptable. In our view, such an opportunity to improve whale 
conservation and to make the IWC an effective organization once 
again may not present itself again soon.
    This will not be easy. Indeed, some IWC members are under 
increasing political pressure and criticism from constituents 
who believe that the chair's proposal would effectively 
capitulate to those members who want to engage in commercial 
whaling.
    On the other side, some IWC members are under increasing 
political pressure and criticism from their constituents, who 
believe that the chair's proposal would unduly restrict their 
right to harvest whales. My hope is that some acceptable 
solution is nevertheless within reach.
    In conclusion, the status quo is bad for whales and bad for 
the IWC. It hampers our ability to advance our foreign policy 
interests with certain key governments.
    We believe that the effort to negotiate a resolution within 
the IWC represents the best opportunity to resolve this 
longstanding difficult issue, to enhance and strengthen our 
bilateral and multi-lateral relationships, to restore the 
functionality of the IWC, and to conserve whales more 
effectively.
    Thank you very much. I would be pleased to answer any 
questions you may have.
    [The prepared statement of Ambassador Balton 
follows:]<greek-l>David Balton deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Secretary Balton. Before 
proceeding on with questions from the members of the 
subcommittee, we are very, indeed, honored to have with us the 
presence of our full committee chairman of the Foreign Affairs 
Committee, my good friend, the distinguished gentleman from 
California, Chairman Berman. I think he does have an opening 
statement that he wants to share with the committee and with 
the public. And I would like to turn the time over to Chairman 
Berman at this time for his statement.
    Chairman Berman. Thank you very much, Chairman 
Faleomavaega. I appreciate this, and I apologize for jumping in 
the middle of this hearing with this statement. I couldn't be 
here at the opening of the hearing.
    I would like, if I could, to get unanimous consent to 
insert into the record a letter from the California Coastal 
Commission to President Obama on the U.S. position at the 
International Whaling Commission.
    Mr. Faleomavaega. Without objection, the statement will be 
made part of the record, as well as your statement, Mr. 
Chairman.
    Chairman Berman. Mr. Chairman, this hearing comes at a 
crucial time, as members of the International Whaling 
Commission prepare to meet next month in Morocco. Despite a ban 
on commercial whaling that has been in place for almost a 
quarter of a century, Japan, Norway, and Iceland continue to 
kill significant numbers of whales every year.
    Japan and Iceland conduct their whaling through a loophole 
in the moratorium for scientific research, while Norway 
objected to the ban, and therefore does not recognize it.
    I agree with those who say that the IWC is broken, when for 
almost a quarter of a century, countries have continued to kill 
whales without limit. Since the ban was implemented in 1986, 
over 12,000 whales have been killed under the scientific 
exemption. I believe very much that the scientific loophole 
should be closed, and that U.S. should encourage Norway as much 
as it can to respect the moratorium.
    Regrettably, a recently released proposal that reflects the 
work of the United States and other members of the IWC fails to 
close this loophole or stop Norway's hunts. Instead, it places 
a cap on the number of whales killed per year. Clearly, there 
are no limits.
    I have several concerns about this proposal. First, I am 
very reluctant to legitimize the actions of whaling countries 
in any situation. Furthermore, questions have been raised on 
whether this proposal would significantly decrease the number 
of killings.
    As nations prepare for meetings in Morocco, the United 
States should build upon the positive achievements made in 
conservation since the moratorium's enactment, and once and for 
all put an end to commercial whaling.
    And I yield back, Mr. Chairman. Thank you again.
    Mr. Faleomavaega. I thank the chairman for his statement. 
And at this time, I know that he is really under pressure with 
time, but if the chairman wishes to raise any questions with 
our administration witnesses, I would be more than happy to 
give him the time.
    Chairman Berman. No. You have been more than generous; I am 
not going to take advantage of that very generous offer. Thank 
you.
    Mr. Faleomavaega. At this time I would like to ask my 
friend, Mr. Delahunt, for his questions.
    Mr. Delahunt. Thank you. Ambassador, let me pose this 
question to both of you.
    The market. Where is the bulk of the market for these 
whales that are killed?
    Ambassador Balton. The bulk of the market is in Japan, sir.
    Mr. Delahunt. It is in Japan. You know, I think your 
observation about the IWC and its credibility and legitimacy 
being eroded is a very valid one. And it is really unfortunate, 
and there should be a stronger word than unfortunate, to see 
its legitimacy waning.
    I wonder if we are unable to achieve our goals in Morocco. 
What are the alternatives that we could consider, in terms of 
maintaining our own integrity and position, vis-a-vis the 
protection of whales?
    Ambassador Balton. Well, I can offer one answer. Ms. Medina 
may have something to add, as well.
    If this negotiation fails, and it may, the options we will 
be looking at are not very good. The trend lines are all bad. 
Regulation without control by the IWC may well continue to 
increase, as the chart that was previously up on the screen 
showed. The political will of the countries who have invested a 
lot of time and energy into trying to find the solution may 
well dissipate, and I don't expect that the countries would 
come together again for another serious effort to improve the 
function of the IWC any time soon.
    As for us, we would really need to reconsider our approach 
here. We have been spending a lot of time and effort within the 
IWC process, mostly lately through Ms. Medina and a large team 
we have. If it fails, we will need to reconsider this time and 
energy and money that we have been putting into the process.
    Japan, Norway, and Iceland will also need to reconsider 
what they have been doing.
    Mr. Delahunt. I guess what I am looking for, Ambassador, 
is, what are the options? What are the specific options? Are 
there sanctions? And that is a word that the chairman of the 
full committee is very familiar with. Are there sanctions 
available to deter those three nations from continuing the 
practice of commercial whaling, albeit under a ruse, if you 
will?
    Ambassador Balton. I guess my best answer is this. You are 
not the first to ask that question; the question has come up 
many times before. And the United States, at least, has never 
been willing to impose any meaningful sanctions for whaling 
activities.
    There is a statute on the book, the Pelly Amendment, and I 
am sure you are familiar with it. Countries have been certified 
under the Pelly Amendment for whaling activities. But if what 
you are talking about are serious economic sanctions, or----
    Mr. Delahunt. Targeted, obviously.
    Ambassador Balton. At least, if the past is prologue, there 
has never been a willingness on any administration's part to 
use those sanctions.
    Mr. Delahunt. That doesn't leave us with a viable option. I 
mean, obstinacy on the part of those three, as you indicate, 
friendly and allied governments, the options are disastrous.
    But I think there is sentiment here in Congress that we 
should be pursuing targeted, a targeted, let us call it a 
remedy, for lack of a better term. Because we don't seem to be 
making any progress. That trend line is disturbing.
    And have we ever taken the position, Ms. Medina, that a 
compromise must include a commitment by all countries to end 
whaling? Commercial whaling?
    Ms. Medina. We consistently take the position----
    Mr. Delahunt. Hit that button.
    Ms. Medina. Oh. Is it on now? I am sorry.
    Mr. Delahunt. Sure.
    Ms. Medina. Maybe I am just, again, speaking too softly. We 
consistently take the position that we would like to see all 
whaling ended, all commercial and scientific whaling.
    Mr. Delahunt. And what is the response?
    Ms. Medina. And I do want to be clear, not indigenous 
subsistence whaling.
    Mr. Delahunt. No, we understand that.
    Ms. Medina. But we do, we do want to see that all 
commercial and scientific, lethal scientific whaling end. And 
the other members of the IWC believe that they are whaling and 
using legitimate grounds for conducting their whaling 
activities.
    We hope, although, as I said, and I want to be clear, that 
we are not there yet with this agreement. But this could be a 
step forward.
    When we began this exercise, we realized we couldn't 
rewrite the convention, which is a 65-year-old convention that 
really doesn't fit today's problems. It doesn't even really 
make sense, if you will, in today's world.
    But we couldn't do it in 1 year. It will take a number of 
years to rewrite the convention in a meaningful way, and have 
it fit the problems that we expect whales to face in the 
future.
    So this agreement would be an interim step toward what we 
would hope would be the end to all commercial and scientific 
whaling.
    Mr. Delahunt. But do we, in terms of the discussions 
regarding compromise? Is there an end game here? In other 
words, is there the willingness on the part, particularly of 
these three nations, to commit to end commercial whaling?
    Ms. Medina. I can't say that there is now. On the other 
hand, they have negotiated with us in good faith for the last 
year. And what I can tell you is that compared to where these 
governments were 1 year ago, we have seen much more flexibility 
and interest in some sort of interim agreement that could lead 
to a new convention.
    Mr. Delahunt. My concern about a convention, a new 
convention, is the time to achieve a new treaty is 
considerable. The processes are considerable. And the trend 
line, we have seen what is happening.
    Ms. Medina. That is why the interim step would be to reduce 
whaling, and to put real hard limits, and enforceable limits. 
So we would have an option if somebody were to go beyond those 
limits, one of those nations, we would have enforceability 
within the IWC, which we have not got right now.
    Mr. Delahunt. And they resist that.
    Ms. Medina. No, they are willing to do that in this 
proposal.
    Mr. Delahunt. I yield back. I thank the chairman.
    Mr. Faleomavaega. Thank you. The gentleman from Arizona for 
his questions.
    Mr. Flake. Thank you, Mr. Chairman. May I ask, if you 
totaled up all the indigenous whaling around the world, what 
would that figure be annually?
    Ms. Medina. It is roughly 300 whales a year.
    Mr. Flake. Three hundred?
    Ms. Medina. It dwarfs the amount of commercial and 
scientific whaling, and it is relatively--well. I am sorry.
    Mr. Flake. Sorry. The commercial and scientific whaling 
dwarfs the indigenous whaling.
    Ms. Medina. Yes, indigenous whaling.
    Mr. Flake. No, I understand that. I just wondered what 
percentage it made up of the total. So indigenous is 300, tops, 
annually, everywhere.
    Ms. Medina. Always.
    Mr. Flake. Whether it is in Alaska or wherever else. 
Russia, Greenland, okay.
    Ms. Medina. There is a little bit by Canada that is also 
done outside the IWC. They left the IWC at the time of the 
moratorium, but it is one or two whales. So, minimal.
    Mr. Flake. With the commercial and scientific, which types 
of whales are being taken, for the most part? What is the 
range, and what is the type?
    Ms. Medina. The greatest number of whales are being taken 
in the stock that is probably the most abundant. That is not to 
say that it is in good shape. We don't know. But it is minky 
whales. The largest number in the southern ocean, then in the 
North Atlantic. But it is minky whales, for the most part.
    Mr. Flake. Is there a sensitivity that you sense among 
these three countries to take only from the stocks of the most 
abundant whales? Or, I mean, are they sensitive to that? Can 
you speak to that a little?
    Ms. Medina. One of the first things that we discussed in 
the support group was the fact that we all, especially given 
that we are allies on so many other environmental issues, we 
all believed that science had to be the foundation for whatever 
agreement was forged.
    And so the issue here is which stocks are most able to 
withstand the hunts. And we have a system in the IWC for 
determining that. We haven't been able to apply that system to 
every type or every stock of whale, but we do have good 
abundance estimates on some. And we would be working underneath 
the sustainability numbers.
    So the IWC calculates what is a sustainable amount that 
could be harvested for each of these stocks. And what we are 
looking to do is cap the number of whales taken underneath that 
sustainable number.
    Mr. Flake. Where would you put that right now, that 
sustainable number? If you say there are, how many annually, 
under the commercial, the scientific exemption, or loophole, 
are taken? And where, how does that relate to where you would 
put sustainability?
    Ms. Medina. The numbers in the southern ocean that we are 
talking about in the chair's proposal, which again we haven't 
agreed to yet, we don't think it is acceptable, are below 
sustainable. Well below.
    Mr. Flake. How much? Can you give me some idea?
    Ms. Medina. I think by a lot. I mean, there could be 
thousands harvested sustainably in the southern ocean. The 
problem with the southern ocean, and I want to emphasize it, is 
that the IWC also created a whale sanctuary there. And there is 
a concern, and it is a valid one, that whaling in a sanctuary, 
in this pristine area of the world, isn't appropriate. And that 
is the issue in the southern ocean.
    It is not so much is it the science, are those stocks hurt; 
it is that this was supposed to be an area that was preserved 
for all wildlife, was supposed to be a sanctuary for whales. 
And it is very sensitive. And yet, the Japanese are conducting 
there large-scale industrial-type whaling activities there.
    Mr. Flake. Of the total, Ambassador, of the three 
countries, Japan is the bulk of it. What percentage of the 
whales that are taken are taken by Japanese fleets?
    Ambassador Balton. I am going to say more than two thirds.
    Mr. Flake. And if asked, what do they say, in terms of the 
scientific justification for taking so many whales? What is the 
stock answer there?
    Ambassador Balton. Japan does perform scientific research 
on the whales they take, and probably have the best whale 
science as a result. But it is also true that the products of 
the research have been sold on the open market.
    Mr. Flake. Right. All right, thank you, Mr. Chairman.
    Mr. Faleomavaega. Thank the gentleman from Arizona. A 
couple questions I would like to ask.
    You have indicated from your testimony that since 1986, 
35,000 whales have been killed, presumably by these three 
countries: Iceland, Norway, and Japan. What is the total world 
population of whales? We have several types.
    Ms. Medina. Mr. Chairman, that is a hard one to answer. We 
are studying that, and that is one of the reasons why I would 
hope that we can find common ground in the IWC.
    Because as the premiere scientific, international 
scientific organization, we could do a better job of 
understanding global populations and movements than we do now. 
So----
    Mr. Faleomavaega. But Madam Secretary, we have been at this 
for 54 years, since 1946. We should have some estimate as to 
the world population of whales, shouldn't we?
    Ambassador Balton. They don't answer the census very well.
    Ms. Medina. I can get you a number.
    Mr. Faleomavaega. Can you submit that?
    Ms. Medina. Very well.
    Mr. Faleomavaega. Yes, just yes, I mean----
    Ms. Medina. Absolutely.
    Mr. Faleomavaega. It doesn't have to be every whale, I just 
was curious. If we have killed 35,000 whales since 1986 out of 
the total population of whales, I am not a mathematician, but I 
would think that conservation does come into play in a real 
sense.
    Ms. Medina. Let me say this. If you could put the chart 
back up on the screen, it might help to put this into context. 
Before the moratorium----
    Mr. Faleomavaega. That thing is not very clear because it 
is so small. Are you referring to this chart that I have here?
    Ms. Medina. The chart, the graph.
    Mr. Faleomavaega. Okay. You can state for the record what 
the numbers say.
    Ms. Medina. The number here isn't even----
    Mr. Faleomavaega. Well, eventually the number here, just 
say what the number is.
    Ms. Medina. Well, prior to the moratorium, the number of 
whales being hunted and killed was in the thousands, tens of 
thousands----
    Mr. Faleomavaega. Before 1986.
    Ms. Medina [continuing]. Before 1986.
    Mr. Faleomavaega. Then we started making excuses about 
scientific studies to justify the continuation of the killings, 
right?
    Ms. Medina. Yes. But putting it into context----
    Mr. Faleomavaega. So there is an absolution. But then on 
the other hand, there is probably no country in the world other 
than Japan that has more information on the science of whales 
than probably any other country, even more than even our own 
country. Would that be a safe statement to make?
    Ms. Medina. Our scientists would say that we are doing an 
awful lot of whale research. But----
    Mr. Faleomavaega. How do we do the research, compared to 
how the Japanese do it?
    Ms. Medina. We don't do lethal research. We do not conduct 
lethal research. And nor would we. It is possible to take DNA 
samples very----
    Mr. Faleomavaega. So we have already done that, as compared 
to what the Japanese have done.
    Ms. Medina. Not any more. We did before, but not any 
longer.
    My point about the moratorium is that the moratorium 
actually did have a beneficial, a tremendous beneficial effect. 
It is, in fact, one of the greatest achievements of the 
environmental movement in the seventies and eighties.
    Mr. Faleomavaega. Actually, how many whales were killed 
before the 1986 moratorium?
    Ms. Medina. It was in the tens of thousands each year. And 
it came down as whale populations dwindled. So, but what I can 
say is that, as a result of the moratorium, whale populations 
have started, but only just begun, we believe some of them, to 
rebound.
    The problem is this trend of increased whaling in the face 
of that is not a very good one. That is what we are concerned 
about.
    Mr. Faleomavaega. Okay. And your statement, Madam 
Secretary, again, I am just kind of putting it generally, it 
sounds like the administration does not support the proposal.
    Ms. Medina. We do not support the proposal in its current 
form. But we hope that it will provide, as Ambassador Balton 
said, a springboard, a framework, or a foundation on which we 
can conclude negotiations, and improve it enough that the U.S. 
could support it.
    Mr. Faleomavaega. And if you strive for improvements, what 
are specific areas for improvement on the proposals that I 
would like for the administration to submit for the record. I 
mean, you say that you have very serious concerns, but can you 
be any more specific about two or three areas that you say 
absolutely you are against this aspect of the proposal? Are we 
in that level right now of where you are very firm in your, in 
the administration's position on this?
    Ms. Medina. We are engaged in almost daily diplomatic 
discussions, in an effort to move our colleagues in the other 
governments. We have been working very hard to have them 
understand that the numbers of whales hunted in the southern 
ocean are very important to us; the number, or the amount of 
whales traded, we would like to see no whale trade occur. Those 
are the most important issues to us right now.
    Mr. Faleomavaega. The concern I have, Madam Secretary, just 
as it was mentioned earlier by Chairman Delahunt, is that it 
seems like we are going right back to square one. New Zealand 
and Australia, several other strong countries in areas of 
whaling are absolutely against any aspect of this proposal. And 
it just kind of sinks the whole thing to say well, we are going 
to try and negotiate. Negotiate where? If already it seems, it 
sounds from both of your testimonies, that the administration 
does not support the current, especially the major aspects of 
what the proposal calls for.
    Here is the question. We want no killings at all; that is 
the ultimate. But at the same time, how do you deal with our 
friendly countries, the free countries that say hey, it is none 
of your business; it is part of our culture, it is part of our 
economic needs. The Norwegians and Icelanders love to eat whale 
meat. So how do you measure that in terms of saying well, who 
are you to tell us that we cannot eat whale meat? Just in the 
same way that our indigenous populations say we can eat it, 
too.
    So where do we draw the line in saying that you cannot do 
this?
    Ambassador Balton. Mr. Chairman, I would say you have put 
your finger on why this is a difficult negotiation. But this is 
a negotiation. The positions articulated by Australia, New 
Zealand, Japan, about the chairman's proposal, are all part of 
a larger negotiation.
    I don't know. If this were a Venn diagram, I am not sure 
all the circles are going to touch.
    Mr. Faleomavaega. You know, we had a little problem years 
ago, when our tuna fishing fleet made this claim that because 
tuna was a highly migratory fish, they could conduct fishing 
for tuna anywhere in the world. The heck with the EEZ zones of 
these countries.
    Well, guess what? They had their vessels confiscated. And 
it got to the point where even one of our sailors got caught in 
the Solomon Islands, and it created a furor, a worldwide furor, 
in saying who is this little dinky country there in the South 
Pacific telling my fishing boat, America, that they cannot fish 
for tuna.
    And we all agree, tuna is a highly migratory fish. But it 
goes again to the same question of the EEZ zones of these 
countries, saying hey, when that fish comes through our 200-
mile EEZ zones, you cannot take the tuna out.
    And so what do we do? Well, they got chased out. They ended 
up in the Russian Pacific, and we're still having problems 
fishing for tuna.
    So I go back to the same questions. How is the world 
community going to tell Iceland and Norway and Japan that they 
cannot kill any more whales because of the consumption demand 
by their people?
    And I think Mr. Delahunt says sanctions. That is one 
option. What, commit a war against these countries for killing 
whales? No, I just wanted to know what other options are 
available. Because we have been at a stalemate for how many 
years now? A good number of years now, I believe.
    Ambassador Balton. We have been at a stalemate for the 
better part of two decades. But we have a negotiating process 
that has a chance to succeed. I don't know if it will succeed, 
but we may. We may get there.
    It may require all sides to accept something less than what 
they optimally want. It would, in any event, only be an interim 
deal. And it may be, Mr. Chairman, that time is ultimately on 
our side. It may be that the markets for whale meat and other 
whale products will eventually dry up entirely, and the problem 
will be solved in that way.
    Until such time, though, we have three countries who very 
much want to continue whaling. We have an interest in 
significant reduction of whaling activities from what we have 
today, and we want to bring such whaling as does exist under 
control.
    Mr. Faleomavaega. Well, there seems to be general consensus 
that the IWC is like a toothless tiger. It has no teeth. It has 
no real enforcement process of saying you can't do this, you 
can't do that.
    And I don't know how we ended up with 88 member countries. 
Every country had whales in their districts? I am curious. It 
became a political football.
    And by way of, I wouldn't call it extortion or bribery, but 
how do you persuade these countries to support you. I think you 
require, what, a three-quarters vote among the 88 member 
countries? And I am curious, 88 members. I didn't realize that 
many countries had whales in their districts. I am just curious 
about that.
    I am also curious that the administration has no comment on 
the bill that Mr. Delahunt and I had introduced for the last 
100 years now. You have no comment? We have had this bill for 
almost 1 year. I guess it is not important? Any provisions in 
there that do not make any sense? Or can you say that maybe we 
can make improvements?
    I would like to ask you for your suggestions. How can we 
improve the bill?
    Ms. Medina. Yes, Mr. Chairman. As I said, we would be 
delighted to work with you to work on various provisions of the 
bill.
    What is unusual about it is that it tells the U.S. 
Government what to negotiate, which is----
    Mr. Faleomavaega. Well, we tried to throw even the kitchen 
sink in there, to make sure that something gets moving here, to 
the extent now that we have got the Ways and Means Committee, 
the Resources Committee, and the Foreign Affairs Committee all 
taking a bite at it.
    And I want to know, maybe we need to separate it so that we 
can get this thing moving in some way. Can you help us with 
that?
    Ms. Medina. Yes, we would be delighted to work with you on 
that. And I do think that the one thing, if you are searching 
for why would the other nations, since they have the right, at 
least they claim, to whale under the Convention now, why would 
they want to have an agreement with us.
    And I think it is because they see legislation like this, 
and they see advertisements like that. And it does have an 
impact on them. And they would like to try and find an answer.
    They also are frustrated, as we are, when they attend IWC 
meetings, and all we do is exchange our verbal accusations and 
spend many weeks every summer--it is an annual meeting, it goes 
on for several weeks--and we don't accomplish anything. And I 
believe they are as frustrated with that as we are.
    Mr. Faleomavaega. I would also note for the record that I 
think the media has been very unfair toward Japan. We see 
national TV, and looking at the Japanese as the evildoers in 
the killings of whales. But I haven't seen one media shot of 
our environmental friends to go against the Norwegians and the 
Icelanders, and they are killing the whales too. I feel there 
is a real sense of unfairness in how the media has portrayed 
Japan as the evildoer, and I think it is very unfair in that 
respect.
    And I don't know if any of our Americans, fellow Americans, 
know that Japan has had a 400-year cultural history in their 
relationship with the whales. So this is just an appetite, 
indeed, there is also a lot of cultural history behind it in 
that country. Just as it is true with our indigenous friends, 
whether it be in Alaska, Canada, Russia, or other countries.
    But I would deeply appreciate it if the administration 
could get back to us as soon as possible, so we can get this 
bill moving in such a way so that hopefully get it to the 
extent that it will be helpful to the whole idea.
    Now, here is the question. Ultimately, no more killings. 
Option B, there has got to be some kind of a conservation here, 
because I don't think we are going to be able to convince these 
three countries that absolutely believe that whaling is just 
like taking other marine resources for consumption. That is why 
we put on moratoriums. And look what happened to the swordfish 
in New England. We ended up now with 150 long-line boats in 
Hawaii, because the swordfish population is no longer there. So 
what have we done for that?
    So it seems to me that there has got to be some kind of 
conservation measures. And I think this is perhaps the key 
factor in how we can get our three friends to do this. If it is 
for consumption, and it may be in some reduced form, but to say 
that absolutely, that they cannot kill any more whales, I don't 
see how this is ever possible. Maybe I am wrong. Could you 
comment on that?
    Ms. Medina. I think it is only possible if we take the next 
step in this work toward an end to lethal scientific and 
commercial whaling. I don't think it is possible without 
continued diplomacy. I think your points about the perspective 
of the Japanese on their hunts are well taken. And of course, 
that is why the U.S. Government has been engaged in a 
diplomatic process, in order to try and reach an agreement 
among partners.
    But it would be only a step toward what we would hope would 
be an end to commercial and scientific whaling. And at the very 
least, getting it under control; making the IWC a relevant 
organization again, and being able to turn to those other 
conservation issues that are probably----
    Mr. Faleomavaega. Well, Madam Secretary, I hate to 
interrupt, but I see that you are speaking about the ideal. But 
the reality is that is not where we are at, and we haven't been 
there for all these years. So we have to really be serious as, 
well, we are making pretensions that we can do it, we can 
negotiate. We negotiate it to death, and the poor whales are 
still being killed left and right.
    So I know I have taken too much of my time. I want to turn 
the time----
    Mr. Delahunt. Mr. Chairman, would you yield to me for just 
a moment?
    Mr. Faleomavaega. Absolutely. My time is over. This is the 
second round, Bill, for you.
    Mr. Delahunt. Okay. I will be very brief. I mean, you know, 
you are talking about negotiations. Well, implicit in the 
concept of negotiations is leverage.
    I fail to see adequate leverage unless there is a clearly 
defined penalty. And maybe it is unilateral in nature. Or other 
signatories, you know, other similarly minded nations that 
would agree with us that there has to be some economic 
sanctions.
    I just don't see these three countries moving in a 
direction.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Delahunt. Of course.
    Mr. Faleomavaega. This is like the non-proliferation treaty 
that we have been at for so many years. It is okay for the five 
permanent members of the Security Council to continue having 
atomic bombs, but we tell the rest of the world they cannot 
have them.
    And I sense it is the same thing with whaling. It is okay 
for certain countries to do it, but the rest of the world 
cannot. And here is the problem that we have. Where do we 
find--sanctions is being discussed, as has been done. But 
again, a total failure.
    How can we positively persuade our friends to say that 
maybe we can work in some other way? That is just a question I 
wanted to raise to the gentleman.
    Mr. Delahunt. No, and I agree with you, Eni. I mean, there 
has to be a punitive aspect. Not that we want to see, to have 
that punitive aspect infect our relationships with allied and 
friendly nations. But if you are ever going to achieve, in 
negotiations, some progress, people have to have something to 
lose. And right now, there is nothing. They can talk you to 
death, and they can negotiate.
    What you are really having are conversations. I don't see 
it as negotiations. And there has to be some sort of creative 
option that the administration designs and goes to Morocco 
with.
    And I echo the request by the chairman in terms of 
reviewing H.R. 2455 that has been filed by himself, me, and 
several others. Be creative. We are looking, we are trying to 
help you in terms of your negotiating posture.
    Ambassador Balton. We understand that.
    Ms. Medina. We appreciate it.
    Mr. Delahunt. I mean, this is not to be, you know, this is 
not to castigate your efforts. I am sure that you are making 
heroic efforts, Herculean efforts. But you don't have any, you 
don't have any bullets in your gun. Everybody knows it is a 
water pistol, you know? And you have got to load up.
    Mr. Faleomavaega. Maybe not even a water pistol.
    Mr. Delahunt. Right. I mean, if the administration is 
sincere--and I think this is how you will be measured, 
particularly by the NGO community--you have to have available a 
punitive economic response. Very targeted.
    And again, I don't know enough about the marketplace, but 
there has to be, again, some creative effort to design a 
punitive measure, so that those stakeholders in those three 
countries are willing to say okay.
    And it doesn't have to just strictly be restricted to 
whales. I mean, the fishing fleets in these countries, in 
addition to whales, what exports to other countries, in terms 
of their fleets, are available for the imposition of sanctions? 
Ambassador?
    Ambassador Balton. Certainly both Norway and Iceland are 
major exporters of fishery products, that is true.
    Mr. Delahunt. That might get their attention, Ambassador.
    Ambassador Balton. I would ask you to consider one thing, 
though. So you might describe Japan, Norway, and Iceland as 
outliers in this; and hence, your desire to consider sanctions. 
But sometimes the--yes, it is, and I will try to speak a little 
more loudly.
    But sometimes the shoe is on the other foot. The United 
States, at different times in our history, has been considered 
an outlier in certain other things.
    Mr. Delahunt. Oh, we are well aware of that. We serve on 
the Foreign Affairs Committee, so we----
    Ambassador Balton. So you know better than I.
    Mr. Delahunt. We do.
    Ambassador Balton. And so that has to be part of the 
calculus, no?
    Mr. Delahunt. Right. And there are times that, you know, 
that Members of Congress have been very critical, in terms of 
administrations--and that is plural--in terms of our own 
behavior. And that is why we have a Committee on Oversight.
    In a democracy, we hopefully can indulge in not just self-
criticism, but self-analysis to see how our behavior can be 
improved. Oftentimes, you know, Congress will conduct oversight 
in a way that might be interpreted as a sanction on the 
Executive.
    And what we are asking for is that kind of analysis to be 
conducted in terms of your negotiation. I would respectfully 
suggest we have got to move from conversation into real 
negotiation.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. Well, I have another juicy issue to share 
with both of you. What about shark-finning? What about the poor 
sharks out there? Merciless killing, I mean, of just taking the 
fins, and destroying the carcass and not of any use. And that 
is another serious, serious issue. What is the world community 
doing about that?
    You know, a little bowl of shark fin soup in Asia is about 
$100. There is a tremendous economic consumption demand for 
shark fin soup. What about the bycatch? Tremendous amount of 
fish that is wasted, that we just don't seem to pay any 
attention to any more than we are paying attention to the 
whales.
    Ambassador Balton. On shark-finning, sir, I can thank the 
Congress, which passed the Shark-Finning Prohibition Act of 
2000, we have actually made some progress. We have gotten the 
different regional fishery management organizations to prohibit 
the practice.
    It still continues, nevertheless. We are trying to find 
ways to better enforce the prohibitions. You are right to point 
out that it is still a problem that is not yet fully solved.
    Mr. Faleomavaega. In fairness to our friends from Iceland 
and Norway and Japan, I don't know if there are any 
representatives from the embassies of Iceland, Norway, and 
Japan. I would be more than happy to open the record. We will 
request submissions and statements from their respective 
governments, and their point of view, at least in fairness to 
them, so that they can have their say in what we are discussing 
this morning.
    But Madam Secretary and Ambassador, I really want to thank 
both of you for spending the time and having to get grilled by 
Mr. Delahunt on these important questions about this issue.
    Thank you. We look forward to working with you. And please 
help us move this bill. If you really think it is helping, we 
will be helpful in seeing how we can better shape this issue, 
so that we can really help those whales.
    Like I said, it was my privilege to sail on the Polynesian 
voyaging canoe called the Hokulea, from Tahiti to Hawaii. And 
for some 26 days, it was almost like I was living about 1,000 
years ago with my ancestors. And every morning and every 
evening are the most beautiful sunsets and sunrises, the 
dolphins chasing us, and also whales.
    Mr. Delahunt. I want to go on the next trip. Get away from 
this madness.
    Mr. Faleomavaega. Isn't that the truth. But anyway, thank 
you both very much, and we look forward to working with you on 
this bill.
    Mr. Delahunt. What are the dates of the Morocco conference?
    Mr. Faleomavaega. It is June something, next month.
    Ambassador Balton. The plenary week is June 22 or 23 to the 
26th. But there are 3 weeks in advance of that; 2 weeks of the 
Scientific Committee, a week of subcommittees, and then the 
plenary. So it is 4 weeks.
    Mr. Delahunt. Thank you.
    Mr. Faleomavaega. Thank you very much. We have on our next 
panel with us this morning, Dr. Justin Cooke who, I think he 
just arrived, coming all the way from the other side of the 
world here to join us for the hearing this morning.
    Dr. Justin Cooke is a member of the International Union for 
the Conservation of Nature in the Specialist Group with the IWC 
Scientific Committee, and specializes in the quantification of 
risks to marine populations due to exploitation and other 
factors. His work includes a modeling of an estimation of whale 
demography. He developed a quantitative component for the IWC's 
revised management procedures. So we have got a good expert 
here who works directly with the IWC's Scientific Committee.
    Also with us this morning, we have Mr. Patrick Ramage. Mr. 
Ramage was named the Global Whale Program manager 3 years ago. 
In his role, Mr. Ramage leads IFAW's efforts worldwide to 
protect whales from threats. This includes promoting practical 
solutions to end commercial whaling, as well as reduce habitat 
destruction, ocean pollution, high-intensity ocean noise, ship 
strikes, entanglement in fishing gear, and the emerging threat 
of global climate change.
    Mr. Ramage is a graduate of the Defense Language Institute 
and has European foreign language training; well-versed in 
German and Russian; is a U.S. military intelligence officer; 
lives in Massachusetts, and probably a member of your 
constituency there, Mr. Delahunt.
    Mr. Delahunt. I suspect he is, Mr. Chairman.
    Mr. Faleomavaega. Also we have with us Mr. Earl Comstock. 
He is the CEO of the Comstock Consulting Firm. Has served as 
counsel for the Alaska Eskimo Whaling Commission for 2 years 
now. In that capacity, he advises the Whaling Commission on 
Congress, the executive branch, and the International Whaling 
Commission.
    He also works with the AEWC to negotiate conflict avoidance 
agreements. Mr. Comstock served from 1987 to 1997 in various 
capacities as a senior staff member to the former Senator Ted 
Stevens from Alaska, and also on the staff of the Senate 
Committee on Commerce, Science, and Transportation. And from 
1987 to 1991, Mr. Comstock was the professional staff member of 
the Subcommittee on Oceans and Fisheries.
    So these gentlemen are very familiar with the marine 
sciences, and the committee is very appreciative of their 
efforts to come all the way here to testify. And let us start 
with Mr. Ramage for his testimony. We will proceed on this.

    STATEMENT OF MR. PATRICK RAMAGE, DIRECTOR, GLOBAL WHALE 
         PROGRAM, INTERNATIONAL FUND FOR ANIMAL WELFARE

    Mr. Ramage. Thank you, Mr. Chairman, and good morning. I am 
Patrick Ramage, Global Whale Program Director at the 
International Fund for Animal Welfare, or IFAW, one of the 
world's leading non-governmental organizations working to 
conserve and protect whales.
    I have attended 12 of the past 14 annual meetings of the 
International Whaling Commission, or IWC. Informed by this 
experience, I would like to offer several points that may 
provide additional context for our discussion this morning.
    But before I do so, let me admit bias. If there is a full-
time whale conservation advocate who worked harder to elect 
President Obama, I have yet to meet them. I worked hard for 
then-candidate Obama in three primary contests and the general 
election, and I am proud to have done so.
    I must also confess almost two decades of admiration for 
Monica Medina, a long-time friend and sometime colleague, for 
whom I have no small amount of affection. I appreciate 
Ambassador David Balton's committed public service, and both 
the legal acumen and the clients represented on this panel by 
Earl Comstock.
    My family, my wife and three children, are in fact lucky to 
call Bill Delahunt our Congressman. And I am also a fan of 
yours, Congressman Faleomavaega, both for your early work on 
shark-finning, and more particularly since your introduction of 
H.R. 2455 almost 1 year ago.
    Now that you know my slants, let me give it to you 
straight. While I believe our Commissioner's motivation is very 
genuine, I believe the proposal she and others have negotiated 
is a fake. That its adoption by the IWC would weaken, not 
strengthen, protection for whales worldwide.
    And further, that United States support for this proposal 
represents an irresponsible, and perhaps irreversible, u-turn 
after decades of United States leadership and slow, but steady, 
conservation progress at the IWC.
    A few contextual points. First, as has already been 
mentioned, our planet's whales are not saved. They face more 
threats today than ever before in history.
    Second, engaged United States leadership is a prerequisite 
for effective international whale conservation. The IWC was 
created here in Washington. Its most important conservation 
achievements, including the moratorium on commercial whaling 
adopted in 1982, and the declaration of the Southern Ocean 
Whale Sanctuary in 1994, were only achieved with creative high-
level support and consistent engagement from the United States.
    Presidents Reagan and Clinton did not take a wait-and-see 
approach to this important issue. They led.
    Third, Americans from sea to shining sea are united in 
their support for whale conservation, and their opposition to 
whaling for commercial purposes by Japan, Norway, and Iceland, 
whether that whaling is conducted in open defiance of the 
moratorium or under the guise of science.
    The reaction to the IWC chairman's draft proposal is 
similarly striking. Not a single environmental, animal 
protection, or wildlife conservation group supports adoption of 
this proposal.
    How, then, did we get to the point where a plan to 
legitimize the cruel and outmoded commercial whaling industry 
is introduced on the 40th anniversary of Earth Day, and is 
actually being seriously considered?
    To be fair, the Obama administration did not initiate the 
misguided negotiating process that led to this proposal. They 
inherited it.
    In the weeks following the inauguration, newly appointed 
officials faced a choice: Withdraw from the ongoing process, or 
continue it and see what concessions, if any, Japan, Iceland, 
and Norway, the last three countries still killing whales for 
commercial purposes, might be willing to make.
    The no-drama administration chose the latter course. But in 
keeping with President Obama's welcome commitment to sound 
science and transparency, the White House also publicly 
articulated criteria by which it would evaluate any proposal. 
Among these, that the commercial whaling moratorium must be 
maintained. That any compromise proposal should be based on 
sound science. And that to be acceptable, any proposal must 
also offer a significant conservation benefit to the whales.
    Measured against these criteria, the chairman's proposal 
fails miserably, and the Obama administration must reject it.
    To suggest, after all these negotiations, that we need to 
wait until the IWC meeting next month in Agadir to learn the 
details of this proposal and the position of our Government 
suggests either incompetence, intellectual dishonesty, or 
inadequate reflection on the serious questions it raises.
    This is a bad deal for whales and the convention 
established to conserve them. It ignores the moratorium. It 
makes a mockery of the Southern Ocean Whale Sanctuary. It 
grants new rights to Japan, Iceland, and Norway to openly kill 
thousands of whales. It end-runs scientific procedures adopted 
by consensus to reward the three countries who have refused to 
play by the rules.
    The promised benefits to whales are either nowhere in 
sight, or the result of sleight of hand. A whale sanctuary is 
finally established in the South Atlantic, where no whaling 
exists. A conservation program committee is established, 
needlessly recreating a conservation committee in place since 
2003. Elaborate observer and monitoring schemes, which will be 
funded by U.S. taxpayers, and an inadequate DNA tracking scheme 
are also established.
    Having outlined what I and the overwhelming majority of 
long-time observers are against, what does change we can 
believe in look like for whales in the IWC? It has six specific 
elements, which are elaborated in my written testimony, but I 
will give you just the headlines now.
    Ensuring Japan's whaling in the Southern Ocean Whale 
Sanctuary is brought to an end. Ending international trade in 
whale products. Adhering to agreed IWC scientific procedures. 
Ensuring no commercial takes of threatened species and 
populations. Specific actions to end so-called scientific 
whaling. And meaningful guarantees regarding objections and 
enforcement.
    I returned 3 weeks ago from my thirtieth trip to Japan. 
From my many, many meetings with Japanese Government officials, 
I can tell you, there is no serious support in Japan for 
continuing whaling in the international waters of the Southern 
Ocean Sanctuary.
    The same general attitude is playing out in Iceland and 
Norway, as well. The domestic market for whale meat is in 
freefall in all three countries.
    Whatever the fate of the chair's proposal and your 
legislation, the United States has a rare window of opportunity 
and a profound obligation to significantly improve the 
situation at the Whaling Commission, and in the water, for our 
planet's great whales, and to lead the world toward the 
ultimate end of commercial whaling. This will be achieved not 
through a rushed effort to negotiate peace for our time in the 
IWC; but rather, through a more consistent, persistent, 
creative, and long-term approach, both inside and well beyond 
the IWC. A more Japanese approach, if you will, to convey to 
the Governments of Japan, Iceland, and Norway that the United 
States and other conservation-minded countries at the IWC are 
as serious about conserving whales as their fisheries' 
bureaucrats are about resuscitating commercial whaling in the 
21st century.
    On behalf of a unified conservation community, I urge you 
to advance the positive vision called for in the thoughtful 
legislation you introduced in H.R. 2455, and the companion 
legislation advanced by Senator Kerry of Massachusetts in the 
form of Senate 3116.
    Thank you, Mr. Chairman. This concludes my testimony.
    [The prepared statement of Mr. Ramage 
follows:]<greek-l>Patrik Ramage deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Faleomavaega. Thank you. And without objection, all of 
your statements will be made part of the record. And if you 
have any additional materials to be added onto it, you are 
welcome, too.
    Mr. Comstock for your statement.

 STATEMENT OF MR. EARL COMSTOCK, COUNSEL TO THE ALASKA ESKIMO 
          WHALING COMMISSION, COMSTOCK CONSULTING, LLC

    Mr. Comstock. Thank you, Mr. Chairman. It is a pleasure to 
be here. And Mr. Delahunt, thank you, both of you, for having 
Alaska Eskimo Whaling Commission here to testify. Our chairman, 
Harry Brower, would have been here, but he landed a whale a 
couple of days ago, and whaling is actively going on up in the 
communities on the North Slope there. So he was unable to 
leave.
    The Inupiat Eskimos of the coastal villages of the Northern 
Bering Sea, the Chukchi Sea, and the Beaufort Sea have hunted 
the bowhead whale for over 1,000 years. Today there are 11 
communities on the North Slope of Alaska, ranging from St. 
Lawrence Island in the Bering Sea to Kaktovic in the Beaufort, 
that still hunt the bowhead whale to provide a critical source 
of nutrition for the people in these communities.
    All of these villages, as you gentlemen may know, are 
accessible only by air, or, in the short summer months, by 
boat. So the meat that is provided by this subsistence hunting 
is critical to the diet of these villages.
    In addition, these communities turn out to harvest these 
whales. And so it is, the communal function of the activity of 
whaling is also very important to the culture of the Inupiat 
Eskimo.
    The Alaska Eskimo Whaling Commission was formed in 1980 by 
the whaling captains in response to a decision by the 
International Whaling Commission to set a zero quota on bowhead 
whales. As you can imagine, this caused quite a crisis in the 
community; and now, 30 years later, we have been working 
through this process for quite some time.
    In the course of doing that, the AWC was formed. And its 
mission is to protect the bowhead whale and the subsistence 
hunt. Over those 30 years, the AWC, working with the United 
States Government, the environmental community, and the IWC, 
has now established what is widely known as sort of the gold 
standard for subsistence whaling at the IWC, and in fact, the 
model worldwide for the use of basically indigenous subsistence 
resource management to handle stock.
    It has been a long and difficult and expensive process for 
the AWC and the whaling communities up there. And we have 
basically met every hurdle that has been placed in our way. We 
have met everything that the commission has said, including, 
over the course of that time, documenting and establishing a 
scientific process for documenting subsistence need, for 
modernizing the 19th century whaling tools that are used and 
marrying them with 20th century technology so that we can 
improve the humaneness of the hunt, and we have also 
established some of the leading-edge scientific research on the 
status of the bowhead stock. Including a program that is 
ongoing today where they actually use the hunters with their 
skills to tag the whales with a satellite tag, so we can now 
actually follow these whales throughout the year and see where 
they actually go. It is an exciting program, and they are very 
proud of it.
    Our role in the IWC frankly has been the political 
football. We know, as you heard in earlier testimony, that the 
IWC is at crisis point. It has become exceedingly 
dysfunctional. And in fact, I was at the 2002 meeting in 
Shimonoseki, where the Japanese successfully blocked the 
approval of a subsistence quota for the Alaskans. And that 
precipitated yet another crisis. And in the ensuing 6 months, 
where the quota was reinstated, what happened was Iceland was 
able to then slip back into the IWC, with the reservation under 
which they now conduct their whaling.
    So we are pushed and pulled back and forth. I mean, 
frankly, we are caught in the middle. And what everybody has 
figured out over this time is that if you want to get the 
United States's attention, what you do is you hold our quota 
hostage. We were up in 2007, and that process happened, almost, 
again. Thankfully, the meeting was held at Anchorage, and so, 
with the tremendous efforts of Senator Stevens and the U.S. 
delegation, we were able to keep the quota from being held 
hostage that year. But we are up again in 2012. And so we see 
this coming again. And in fact, we have been told by some of 
the countries that we will not see our quota reauthorized.
    So I am here today to say that we do support the process 
that is going forward on this future negotiation. It is not, 
the document that has been introduced is not a perfect 
document; we recognize that. We would like to see some 
improvements ourselves. And we know our colleagues here, and we 
have worked with Patrick and many of the other environmental 
groups for many years, would like to see changes to that 
document. We are all for that.
    But our key concern, and what I am here to testify to you 
today about, is we really need to find a way to get subsistence 
whaling out of the middle of this mix. Because what is 
happening is these communities that depend on whaling for a 
critical source of their nutrition are being increasingly taken 
hostage by both sides as a means for getting the various 
governments' attention, and trying to negotiate something.
    And if you can imagine this, there was discussion earlier 
about why do we have 88 countries at this; 88 countries are now 
getting together for almost 2 weeks a year. And the sole thing 
they seem to be able to focus their discussions on is 
subsistence whaling.
    All of the other stuff, all of the other important issues--
ship strikes, climate change, commercial whaling--those aren't 
discussed at all. They are talked about on the edges and in the 
shadows of the meetings. But when you get to the floor debate, 
what happens? Subsistence whaling gets to be front and center 
because it is the only thing they can agree on.
    So the status quo is a continuing stalemate. And we would 
like to see the process move forward. As your bill, Mr. 
Chairman, points out, there are many things the U.S. needs to 
do. They have exercised the leadership role throughout this 
process. But in exercising that role, it has also made our 
quota a target.
    So the good thing we see in this proposal is that it would 
grant a 10-year subsistence quota. That takes us out of the 
picture. And that, frankly, frees the United States, then, to 
engage in exactly the kind of leadership that you are hearing 
the other parties testify needs to be done.
    If we are not there to be held hostage, you have got a lot 
more room.
    And let me just say in concluding my testimony, as someone 
who participated in several international fishery negotiations, 
and has been at the IWC for various, well, 10 different times 
now over the past 20 years, you can't achieve all of this at 
once. In any of these negotiations, if you say we must have 
everything at the start, you won't get there.
    So the key is setting up a framework that allows you to 
continue to push your objectives over the period of time. That 
is what this document does.
    And so we would urge you to support the U.S. delegation, 
give them the flexibility to negotiate the best possible 
agreement they can, one that protects subsistence and 
accomplishes as many of the U.S. objectives as possible. And 
then as long as that framework allows for the continued 
pressing of those objectives that you weren't successful on 
achieving entirely, we think you have got something that is 
worth moving forward on. So we would encourage you to do that.
    Thank you for taking my testimony today, and I would be 
happy to answer any questions.
    [The prepared statement of Mr. Comstock 
follows:]<greek-l>Earl Comstock deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Mr. Comstock. Dr. Cooke, for 
your testimony.

   STATEMENT OF JUSTIN COOKE, PH.D., SCIENTIFIC CONSULTANT, 
REPRESENTATIVE TO IWC SCIENTIFIC COMMITTEE, INTERNATIONAL UNION 
                 FOR THE CONSERVATION OF NATURE

    Mr. Cooke. Yes. Thank you, Mr. Chair. I am Justin Cooke, a 
mathematician and biologist based in Germany, specializing in 
the quantitative assessment of biological populations.
    Since the 1980s I have been a representative of the 
International Union for the Conservation of Nature on the 
Scientific Committee of the IWC.
    I have been invited here specifically to comment on the 
proposed deal between the pro- and anti-whaling members of the 
International Whaling Commission. But first I want to say what 
an honor it is for me to be invited to testify for your 
subcommittee, and that I am thrilled to be here on the Hill 
talking to you today.
    On the IWC Scientific Committee I have been particularly 
active in the development of the so-called revised management 
procedure, RMP. And because the proposed deal makes several 
references, both to the Scientific Committee and to the RMP, I 
will start by explaining briefly what these are.
    The IWC is required by its charter to base its decisions on 
scientific findings. And for this purpose, it has a Scientific 
Committee, which has, in recent years, become recognized as a 
world authority on the state of the world's whale stocks and 
the science of sustainable whale management.
    Its members include representatives of both whaling and 
non-whaling countries, as well as a number of independents. It 
reaches its conclusions and recommendations mainly by 
consensus, such consensus being reached usually after very 
thorough examination of the evidence.
    Shortly after the moratorium on commercial whaling came 
into force in the 1980s, the Scientific Committee started to 
analyze what it calls the failure of previous attempts to put 
the management of whaling onto a sustainable basis. The 
committee soon recognized that, for the event that the IWC 
might decide to lift the whaling moratorium at some future 
date----
    Mr. Faleomavaega. Is your mic on, Dr. Cooke?
    Mr. Cooke. I am sorry.
    Mr. Faleomavaega. Okay. Could you get a little closer?
    Mr. Cooke. Is that better?
    Mr. Faleomavaega. Yes.
    Mr. Cooke. Okay. The committee soon recognized that for the 
event that the IWC would decide to lift the moratorium at some 
future date, the committee needed to develop a revised 
management procedure that would provide a robust scientific 
basis for ensuring that any future whaling would be managed 
sustainably.
    The procedure that emerged is a data-based rule for 
determining sustainable catch limits, with a margin of safety 
sufficient to cover almost all conceivable circumstances.
    It was unanimously recommended by the Scientific Committee, 
and was also endorsed by an independent scientific review panel 
appointed here in the U.S. by the National Marine Fishery 
Service. The IWC itself has endorsed the RMP in principle, in a 
number of consensus resolutions.
    The proposed deal before us contains as yet no agreed 
numbers for how many whales of each species would be killed. As 
explained in the covering note by the IWC chairman, the numbers 
in the current draft proposal are merely examples inserted by 
him as spaceholders for final numbers yet to be negotiated.
    The proposed deal mentions the RMP several times, but when 
you look at it closely, it does not provide for it to be used 
for the determination of sustainable catch limits. The numbers 
are instead to be agreed through political negotiation behind 
closed doors.
    The proposal contains a provision that catch limits would 
be reduced it RMP catch limits are found to be lower. But this 
provision doesn't mean what it appears to mean. The proposal 
does not reference the official published version of the RMP, 
but refers to unspecified latest versions of the procedure.
    A number of alternative procedures have been developed in 
various quarters that claim to be later versions of the RMP. 
None of them have been subject to serious scientific scrutiny. 
They would allow higher catches, but only by modifying the 
notion of sustainability so drastically that it no longer bears 
any relation to what people commonly understand by the term.
    The proposal contains a program of RMP-related work for the 
Scientific Committee, but closer inspection reveals this to be 
a mere decoy; more like a program of occupational therapy for 
the scientists. There is no provision for the results of this 
work to feed back into the management decisions.
    The committee is instructed to continue work on preparing 
RMP implementations for different whale species and areas, but 
has been told not to calculate any actual numbers. The 
calculation of catch limits is to be left to unspecified 
players free to use versions of the RMP, whose safety has not 
been tested by the committee for the species in areas in 
question.
    The proposal, as written, is therefore somewhat 
disingenuous, and I suspect that it will fool a number of 
people. It fooled me, on first reading. The true nature of the 
scam only dawned on me after reading the text several times, 
and even then only with the benefit of many years of experience 
with the IWC procedures that enables me to relate such a text 
to how it would actually be implemented in practice. Those 
without the benefit of such experience will find it even harder 
to discern what the text really implies than to spot the scam.
    I consider the move to sideline the Scientific Committee 
and to sidestep accepted scientific procedures to be a 
retrograde step, and to be very unwise. The proposal before us 
is back to front; it tries to divide the cake before we know 
how big the cake is.
    It would make more sense first to have the Scientific 
Committee calculate maximum sustainable catches for each whale 
stock in a transparent, verifiable manner, using the agreed and 
established procedures. For at least half of the whale stocks 
in question, this could be done straightaway, because the 
implementation work has been completed. All that we require is 
a green light.
    These maximum limits would then define the outer bounds for 
what the diplomats have left to negotiate over. That approach 
would ensure a transparent separation of science and politics, 
instead of the rather oblique mixture of quasi-science and 
politically negotiated numbers that characterizes the current 
proposal.
    Finally, I should emphasize that none of what I have said 
should be construed as criticism of the very sincere efforts of 
the U.S. delegation to these negotiations, led by the U.S. IWC 
Commissioner Monica Medina. I know that Monica has been highly 
motivated to achieve the best possible deal for the world's 
whales.
    However, we need to appreciate that one is dealing here 
with very experienced negotiators from the whaling countries 
who know the whaling issue inside-out, who are on top of the 
science, and who have plenty of skill and practice in carving 
out deals that aren't what they seem to be. Such negotiations 
require a good grasp of all aspects of the subject matter.
    To sum up, I warn against endorsement of this proposal, and 
advocate instead a two-stage approach, as I have just outlined, 
that would keep the political and scientific aspects separate, 
and ensure that all measures taken are based on a strong and 
transparent scientific consensus.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. Cooke 
follows:]<greek-l>Justin Cooke deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you very much, Dr. Cooke, for your 
statement. My apologies if I do not pronounce your name right, 
is it Mr. Ramage, or Mr. Ramage?
    Mr. Ramage. I have been called a lot worse. It is Ramage.
    Mr. Faleomavaega. Okay. Thank you. I have some questions I 
wanted to share with you gentlemen.
    All three of you I assume were here when Secretary Medina 
and Secretary Balton were testifying. And I don't know if Mr. 
Delahunt and I have missed any of our sense of concerns in the 
questions that were raised with the administration's position.
    I know that Mr. Ramage, you were very specific in terms of 
your stated opinions on the Obama administration and their lack 
of initiative and leadership on this issue of whaling.
    I wanted just to ask you if there is any sense of comfort 
from what Secretary Medina and Secretary Balton are both 
saying. It seems like they are not supporting the proposal. Is 
this--maybe I misread what their statements were earlier when 
they testified. But what is your take on this?
    Mr. Ramage. Well, I think their reassurances were familiar 
only in this--I am sorry--were comforting, only in the sense 
that they are very familiar.
    The position, public position of the administration is that 
they find the chairman's proposal unacceptable. But, as 
articulated this morning, they hold out the hope that it is a 
good basis for negotiation. And they are going to decide on the 
spot in Agadir what the position of the United States might be.
    The fervent hope of the participants in the drafting 
group--and this has been palpable in the meetings, the lone, 
open meeting held 2 months ago in Florida, where accredited 
NGOs were allowed to attend, and the many closed meetings, as 
well, which some of us have sat outside.
    But the fervent hope of those participants, and in fact the 
chair--and he refers to this in the proposal--is that cover-up 
consensus can be used in Agadir to put through----
    Mr. Faleomavaega. Can you elaborate on what you mean by 
cover-up consensus?
    Mr. Ramage. Well, what is hoped for is that all countries 
will come together, hold hands--some of them will have to hold 
their noses, given the flaws in the document that we have 
reviewed this morning--close their eyes, and jump into this new 
arrangement. Loudly saying that it is a significant 
conservation benefit for whales.
    But the package fails in some important respects that have 
already been highlighted, both in your questioning and by other 
testimony this morning.
    I hasten to add, though, that this isn't a question of 
effort, certainly not on the part of the U.S. Commissioner, who 
has been about this 24/7 since being appointed by the 
President, and even before in a kind of functional capacity.
    But I don't think that the higher-level engagement and 
creativity that both you and Congressman Delahunt have referred 
to has been there from others in the administration. And that 
leverage that Congressman Delahunt highlighted is so crucial to 
a negotiation has been utterly absent.
    Mr. Faleomavaega. Mr. Comstock, you raised some very, very 
interesting points about the fact that your testimony, 
especially the interests of our indigenous peoples and their 
interest in doing subsistence whaling. And I am glad that Dr. 
Cooke is here, that maybe you can give us a little bit of 
enlightenment in terms of the proceedings that we had in the 
past.
    Why is it that it seems that the focus of the IWC now is on 
the concerns about indigenous whaling, and forgetting about all 
other aspects of the seriousness of the conduct of whaling 
operations that have been done by Japan and Norway and Iceland 
for all these years?
    And I wanted to ask Dr. Cooke for his comment, if Mr. 
Comstock's observations have been very accurate about the 
agenda and the subject matter that has been discussed at the 
IWC meetings. And the fact that they talk more about indigenous 
needs than they are about the commercial aspects of the 
problems that we are faced with.
    Mr. Cooke. Mr. Comstock can give a better answer to that 
question regarding the political negotiations in the IWC. I am 
a member of the Scientific Committee.
    With regard to the scientific aspects, we have had for a 
number of years what we call the Aboriginal Whaling Management 
Procedure, which is the basis we use to estimate sustainable 
catch limits for aboriginal whaling. And that has functioned, I 
believe, very well. There have been virtually no complaints 
from any quarters about the functioning of it.
    And the intention under the chair's proposal is that the 
arrangements for aboriginal whaling will remain effectively the 
same as they have been. I believe the only reason why it was 
found necessary to include them in the proposal at all is what 
Mr. Comstock just explained was a way of kind of fixing them in 
place, so that they wouldn't become political, it wouldn't 
become a kind of political football again, as it has in the 
past.
    Mr. Faleomavaega. But it seems to me, then, and please 
correct me if I am wrong, if I heard right what Mr. Comstock 
was sharing with us, that while exposing the development of the 
agenda and the issues to be discussed by the IWC, by the time 
you get through with it you talk more about the indigenous 
problems posed and stuff. And yet no one pitching on the 
commercial problems that we are dealing with with the three 
friendly countries that continue to conduct commercial 
operations in the killing of the whales. Is this an accurate 
description of how the IWC seems to be conducting its meetings?
    Mr. Cooke. Well, one of the reasons for that is that some 
years ago, when the management procedure for commercial whaling 
was finalized, the Scientific Committee was given a kind of 
muzzle. It was told that it should not calculate any actual 
numbers for that.
    And both the pro- and anti-whaling sides were in favor of 
suppressing any calculation of numbers, on the pro-whaling 
side, because they were afraid if numbers started appearing on 
the table, they would be under some obligation to abide by 
them. And the anti-whaling side worried that if numbers start 
appearing, that would be seen as a legitimization of some level 
of whaling. So both sides of the divide were united in not 
wanting to see any numbers for commercial whaling.
    On the other hand, for aboriginal whaling we have had 
numbers produced and updated annually or every few years, for 
each of the indigenous whaling operations. And probably for 
that reason, they have attracted more discussion than the 
commercial whaling, where the numbers up to now have been 
suppressed.
    And I would strongly advocate that this suppression of the 
right to calculate numbers by the Scientific Committee should 
be lifted. And I think that should be done before a proposal, 
such as the one we have before us, should be discussed, so that 
we know what are the sustainable limits for each whale 
population. When we know that, then the diplomats and 
politicians then know what they have to negotiate over.
    Mr. Faleomavaega. I don't see how this issue of indigenous 
whaling could be ever considered as a political football, given 
the fact that I think 300 whales a year that the indigenous 
populations kill, and for subsistence purposes, it is not for 
commercial purposes.
    But it seems to me that what I am hearing is that there 
seems to be a lot of leverage by our pro-whaling faction within 
the IWC to talk more about the problems of these indigenous 
peoples, and say hey, you don't need to find a count, it is 
only 300. Why are we suppressing the number? We are only 
talking about 300 versus the thousands of whales that have been 
killed by our three friends from Iceland and Norway and Japan. 
I am not getting this correctly, and I want to make sure the 
record is accurate and I get this correctly. Mr. Ramage.
    Mr. Ramage. Yes, Mr. Chairman. I think you have put your 
finger on the very point. And I should hasten to validate, at 
least from my own attendance at the political meetings as an 
NGO observer, 14 of those meetings in recent years.
    It is a sad commentary--and I have discussed this with 
Commissioner Medina, as well--that we have gotten to the point 
in the commission that the only whaling that the commission 
seems prepared to argue over and regulate is the whaling 
conducted by indigenous communities. Particularly that 
conducted--and it is done in a world-class way, as Earl has 
earlier said, by the Alaska natives. But it is not an accident. 
Because Japan perceives, rightly, that that is the issue that 
the United States cares about more than any other at the IWC.
    And this relates to your earlier very good point and 
question about how in the world have we gotten to 88 countries, 
some of them landlocked countries, who are members of the IWC. 
And a large part of the answer lies in the fact that Japan, by 
its own open admission, has used what they call a vote 
consolidation strategy to creatively and aggressively recruit 
countries from around the world who have no interest in 
whaling, who don't whale in their waters, who have no tradition 
of whaling, to come and support Japan's claim at the IWC.
    In Japan, the good people of Japan know nothing about this. 
And their senior government officials don't bear as much 
responsibility as their fisheries agency bureaucrats.
    But the subsistence whaling quota of the Alaska natives is 
held hostage, as Earl has said, by Japan to try and achieve 
other outcomes in the forum that they can't achieve through the 
power of their persuasion, or their votes, or even what some 
refer to as vote-buying.
    Now, perversely, those outcomes so long labored for by 
Japan are being delivered on a platter by this group: The 
ignoring of the moratorium, the legitimization of commercial 
whaling in 2010, unprecedented rights to conduct commercial 
whaling in a sanctuary, setting science to the side. All those 
things are being served up.
    It is a time for more engaged senior United States 
leadership and leverage to change the situation, both in the 
commission and in the water, for the whales.
    Mr. Faleomavaega. Well, in fairness also to the Japanese 
Government and its policies, as you know, the first time in 50 
years, Japan now, is now governed by a newly elected political 
party that are almost in total opposites of all the policies 
that we have, that has been taken by the previous, for the 
previous 50 years by the Liberal Democratic Party.
    So we may be seeing some change in that in terms of maybe, 
I am not saying that, I am not here representing the Japanese 
Government. But let us see what happens, that there may be a 
different change or shift in policy about how this issue of the 
whaling issue may be done.
    Mr. Comstock.
    Mr. Comstock. Yes, Mr. Chairman. If I might just add, to 
make sure it is clear it is not a one-sided game here, we get 
held hostage by both sides.
    What happens is if there are other countries, like 
Australia and New Zealand, who have longstanding reservations 
about any kind of whaling, some to the extent of saying they 
don't even want to see subsistence whaling.
    And so if they feel the United States is drifting too close 
to the whaling countries, our quota also becomes the lever by 
which they move them back. So it really is a situation on both 
sides. And I think the dilemma--and you and Mr. Delahunt 
referred to this earlier--the question is, what are the 
alternatives. And what are the levers that you have.
    And that is why, while the AWC would like to see this 
document improved, we do have to agree with the statements by 
Mr. Balton and Ms. Medina that this is probably the best 
opportunity certainly that has come along in the last decade or 
more. And it would be a shame to waste that opportunity. 
Whether you, at the end of the day, get a deal that the United 
States is comfortable with is yet to be decided.
    But we do think that you need to give it the best shot. 
Because otherwise we will find ourselves in a situation next 
year, and in 2012, where this intractable dispute between the 
whaling and anti-whaling forces probably ends up hurting only 
one party, which is the Alaska natives who are seeking a 
subsistence quota. Because we do follow the law, and we have a 
difficult time.
    So I just wanted to flag, if this all falls apart, there is 
legislation that was introduced in the last Congress having to 
do with domestic authority to set a quota. And certainly we can 
tell you the AWC would be back here talking to you about that, 
as well.
    So this does have ramifications down the road for where 
things go.
    Mr. Faleomavaega. I want to note also of interest Dr. 
Cooke's statement earlier about the fact that whatever numbers 
that were submitted for part of the proposal, it is not really 
the numbers because this has not been finalized until next 
month's meeting. Is that correct, Dr. Cooke? Or was this just 
being thrown out just as testing the waters and trying to see 
what the reactions are? Quite obviously, they are already lined 
up, the pros and those who are against the proposal.
    But am I correct for the record that you said that they 
don't take the proposed numbers seriously because they are not 
really final, at least in view of the Scientific Committee's 
positions on this, as well?
    Mr. Cooke. Well, you have asked two separate questions. 
Yes, it is correct, the numbers are not final. But the proposal 
was distributed with a covering letter from the chairman, where 
he explains in his covering letter that there was no agreement 
on the numbers. Therefore, the numbers in the proposal are 
simply examples, example numbers he inserted himself. And those 
have not been agreed. And negotiations over numbers will be 
continued up until the meeting of the Whaling Commission next 
month.
    The other issue is the fact that the Scientific Committee 
has not been asked or authorized to input into the process in 
terms of giving their own estimates of what would be 
sustainable catch levels. And that is what I see as one of the 
weakest aspects of the proposal, that this is not being done.
    And therefore, I would strongly urge that this should be 
done. The Scientific Committee should be given the authority to 
calculate estimated sustainable catch levels using established 
scientific procedures in the usual ways, so that these will be 
fully documented and verified. When that has been done, then we 
can see what the sort of range of possibilities lies, what the 
maximum limits are within which the diplomats could then 
negotiate.
    Mr. Faleomavaega. Do you care to comment, Mr. Comstock?
    Mr. Comstock. Again, I think he is just illustrating that 
this is, in terms of the process, this has been a political 
process, and the numbers obviously have been a key component. 
The aboriginal numbers have been in there for quite some time. 
And the quota for the Alaska natives would not change under 
this proposal, so we are pleased with that.
    But it is a political process, there is no doubt about it. 
And what you have right now in front of you is an amendment 
that has been proposed, that had to be, you know, submitted 60 
days in advance of the meeting. So that becomes the basis on 
which everyone speaks.
    It is presumed by I think almost everyone that there will 
be attempts to change that amendment in one way, shape, or 
form. In fact, I know, and I think we are going to be joining 
Patrick and others in suggesting amendments. We, from the 
Alaska perspective, have some amendments we would like to see 
to it, as well.
    Mr. Faleomavaega. I was a little surprised by the fact that 
the bill that Congressman Delahunt and I have introduced has 
been in there for public, as well as the administration's, 
opportunity to review and analyze for the last 10 months. And 
then to learn from both Secretary Medina and Secretary Balton 
that they have no comment, it sounds like they never even 
bothered reading the bill. And that a little concerns me. It 
kind of reflects what Mr. Ramage has said earlier about this 
administration really is not that serious about the issue that 
we are talking about this morning.
    I furnished to you, Dr. Cooke, I don't know if you had the 
chance to review the provisions in the proposed bill, H.R. 
2455. Do you think that maybe we are encroaching on the mighty 
power and will of the IWC's authority to operate, to control 
and administer the problems dealing with whales?
    Mr. Cooke. I am afraid I have to pass on that one, because 
I don't really understand the ins and outs of the U.S. 
legislative process. So maybe one of my co-panelists could 
answer.
    Mr. Faleomavaega. And I am happy to hear, Dr. Cooke, that 
you say that the Scientific Committee of the IWC is the most 
renowned authority on whales. I would very much appreciate if 
you could submit for the record some of the most recent 
scientific results of the studies, whatever analysis that the 
IWC has conducted. That could be helpful in educating the 
American public about what you have discovered about whales.
    Mr. Cooke. The long answer to that would be extremely long. 
I could submit an extremely short summary of----
    Mr. Faleomavaega. Yes, just----
    Mr. Cooke [continuing]. Just a few points, yes.
    Mr. Faleomavaega. Just give us the real meat of it, if you 
can. I would appreciate it if you could help us with that.
    Mr. Cooke. You mean now, or for the record?
    Mr. Faleomavaega. No, no, no, for the record. For the 
record.
    Mr. Cooke. Yes.
    Mr. Faleomavaega. All right. Well, gentlemen, I tried to 
see if there is any other point we wanted to do. As you know, 
we have gotten a firm commitment from our friends at the 
administration, they definitely are going to review the bill, 
and they will get back to us. And hopefully we can start 
running with this thing and see what we can do.
    And I want to commend Senator Kerry for also introducing a 
similar type of legislation. And hopefully, hopefully in the 
coming months, we can work something out on this thing.
    I have a laundry list. And for the sake of time, and I 
don't want to have you gentlemen listen in on this, but I have 
to do this because of the record. I have several documents here 
that I do want to submit for the record, so that when we print 
the hearing proceedings it will be a good basis, kind of like a 
little library that you can take with you when you talk about 
this.
    I have got a letter dated April 28, 2010, addressed to 
President Obama from the U.S. Senate, expressing similar 
concerns about whaling, from our good Senators. Senator 
Murkowski, Senator Inoue, Senator Akaka, and Senator Begich 
concerning whaling, that will be made part of the record, 
without objection.
    Another letter also addressed to President Obama, dated 27 
April of this year, from Senator John Rockefeller, the chairman 
of the Senate Committee on Commerce, Science, and 
Transportation, also expressing concerns about the IWC.
    Also for the record, I want to put in the briefing 
concerning international whaling submitted here from our 
friends. It is dated, from staff, and I want to make this part 
of the record.
    Also an article by Juliet Elperin dated April 24 of this 
year, entitled ``International Whaling Commission Proposes 
Compromise on the Ban.''
    Also for the record, an article by Mary Yamaguchi of the 
Associated Press, to be made part of the record, dated April 23 
of this year, ``Commission Proposes Limited Commercial Whaling 
Hunts.''
    Also for the record, from the New York Times dated 23 
April, an article by Andrew Revkin, entitled ``Whaling Peace 
Plan Just Less of the Same?''
    Also for the record, printed materials from the BBC News 
concerning the whaling issue.
    Also for the record, dated 28 April, an article by Joel 
Reynolds<greek-l>, deg. called<greek-l>, deg. ``It Is No Way to 
Save the Whales.''
    Also another record from the Economist, dated May 1, and it 
is called ``A Giant Compromise,'' also to be made part of the 
record.
    Another article, from the New York Times by Mr. John 
Broder, ``U.S. Leads New Bid to Phase Out Whale Hunting; Good 
Luck,'' for the record.
    Also for the record, this is not an official submission, 
but it is from the Embassy of Japan, background giving basic 
positions of the Japanese Government, submitted by Mr. 
Shironakasuka, First Secretary of the Embassy of Japan.
    And as I said, I will open the record for our friends from 
Iceland as well as from Norway, for their embassies to submit 
whatever statements they want as part of the record.
    Also a request that we make the Congressional Research 
Service submission of a memorandum dated 28 April, 2010. I 
think that is important background information.
    For the record, August 12, 2009, a letter concerning the 
bill, the International Whale Conservation Protection Act of 
2009, signed by one, two, three, four, five, six, seven--100 
NGOs. For the record, I want to make sure it is in there.
    And also for the record, the press release issued by the 
chairman and the vice chairman of the IWC concerning this 
proposal.
    For the record, dated February 26 of this year, a letter to 
President Obama from Members of the House of Representatives, 
Congressman Delahunt, myself, Congresswoman Bordallo, and 
Congresswoman Mazie Herono.
    For the record, the chair's proposal comparing the various 
baselines, the chart, and all of these things will be made part 
of record.
    Thank you for your patience. And also a press release 
submitted by NOAA, dated April XX--it has not been released 
yet--made for the record on whaling, concerning the bill.
    With that, gentlemen, I think Mr. Delahunt probably will 
not have an opportunity to come back. But it is definitely the 
intention of the chair to proceed as hard as we can to see what 
we can do with the other committees that have claimed 
jurisdiction on this bill, and see how we can work this through 
the committee process.
    Mr. Comstock.
    Mr. Comstock. Mr. Chairman, I just want to say on H.R. 
2455, we are looking at that bill. And I can tell you we will 
have a few suggestions for you just to make sure that it 
doesn't adversely impact subsistence.
    Mr. Faleomavaega. I will keep the record open for further 
comments from you, Mr. Comstock, and your organization. The 
same also, Mr. Ramage. And as I said, any other additional 
materials you want to submit definitely will be made part of 
the record.
    Also for the record, a copy of the bill, as well as a 
companion bill introduced by Senator Kerry, that will be made 
part of the record.
    Anything else that I forgot? Also include the Bible and 
whatever else we have got.
    Gentlemen, thank you so much for your patience. I 
appreciate Mr. Comstock and Mr. Ramage being patient. Let us 
see how our friend, Secretary Medina, is going to come out on 
these negotiations next month. Maybe we will come out with 
something a lot more positive, and then hopefully this proposal 
is going to come out with more substantive stuff. And hopefully 
the Government of Japan will also be cooperative in what we are 
hoping for.
    And Dr. Cooke, thank you so much for traveling all the way 
here to testify before this subcommittee.
    And with that, gentlemen, the subcommittee hearing is 
adjourned.
    [Whereupon, at 12:16 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
